<html>
<title> - NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2008 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED TENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




                         [H.A.S.C. No. 110-50]

                                HEARING

                                   ON
 
                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2008

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES SUBCOMMITTEE HEARING

                                   ON

                BUDGET REQUEST ON INFORMATION TECHNOLOGY

                               __________

                              HEARING HELD

                             MARCH 28, 2007

                                     
[GRAPHIC] [TIFF OMITTED] 

                                     


    TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES SUBCOMMITTEE



                  U.S. GOVERNMENT PRINTING OFFICE
43-956                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office  Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001




                    ADAM SMITH, Washington, Chairman
MIKE McINTYRE, North Carolina        MAC THORNBERRY, Texas
ROBERT ANDREWS, New Jersey           ROBIN HAYES, North Carolina
JIM COOPER, Tennessee                KEN CALVERT, California
JIM MARSHALL, Georgia                JOHN KLINE, Minnesota
MARK UDALL, Colorado                 THELMA DRAKE, Virginia
BRAD ELLSWORTH, Indiana              K. MICHAEL CONAWAY, Texas
KIRSTEN GILLIBRAND, New York         JIM SAXTON, New Jersey
KATHY CASTOR, Florida
                 Bill Natter, Professional Staff Member
               Alex Kugajevsky, Professional Staff Member
                     Andrew Tabler, Staff Assistant




                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS

                                  2007

                                                                   Page

Hearing:

Wednesday, March 28, 2007, Fiscal Year 2008 National Defense 
  Authorization Act--Budget Request on Information Technology....     1

Appendix:

Wednesday, March 28, 2007........................................    27
                              ----------                              

                       WEDNESDAY, MARCH 28, 2007
FISCAL YEAR 2008 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST ON 
                         INFORMATION TECHNOLOGY
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Chairman, 
  Terrorism, Unconventional Threats and Capabilities Subcommittee     1
Thornberry, Hon. Mac, a Representative from Texas, Ranking 
  Member, Terrorism, Unconventional Threats and Capabilities 
  Subcommittee...................................................     2

                               WITNESSES

Croom, Lt. Gen. Charles, USAF, Director, Defense Information 
  Systems Agency (DISA)..........................................     6
Grimes, John G., Assistant Secretary of Defense for Networks and 
  Information Integration and Chief Information Officer, 
  Department of Defense..........................................     2

                                APPENDIX

Prepared Statements:

    Croom, Lt. Gen. Charles......................................    46
    Grimes, John G...............................................    31

Documents Submitted for the Record:

    Defense Information Systems Agency slides, March 28, 2007, 
      submitted by Lt. Gen. Charles Croom........................    69

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Smith....................................................    95
    Mr. Thornberry...............................................   104
FISCAL YEAR 2008 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST ON 
                         INFORMATION TECHNOLOGY

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                      Terrorism, Unconventional Threats and
                                 Capabilities Subcommittee,
                         Washington, DC, Wednesday, March 28, 2007.
    The subcommittee met, pursuant to call, at 2:00 p.m., in 
room 2122, Rayburn House Office Building, Hon. Adam Smith 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM 
  WASHINGTON, CHAIRMAN, TERRORISM, UNCONVENTIONAL THREATS AND 
                   CAPABILITIES SUBCOMMITTEE

    Mr. Smith. We will call the meeting formally to order and 
go ahead and get started.
    I appreciate the members and the witnesses, and I look 
forward to your testimony. I will be brief in my opening 
comments.
    You know we are here today to talk about information 
technology (IT) within the Department of Defense (DOD), 
obviously very important issues and multi-layered. And I look 
forward to the testimony from our two witnesses, in particular 
how we on this committee can help, because one of our main 
jurisdictional areas is science and technology in general but 
information technology in particular, and we want to figure out 
how we can be as helpful as possible in moving that process 
forward, and I have looked at your testimony, and I guess the 
only thing I want to highlight in terms of talking about it is 
that I think the model is exactly right in terms of, you know, 
setting up the network, getting people access to it who need 
access to it to make sure and then protecting it from those who 
do not. The challenges that I have seen from IT systems, you 
know, just through the years is that they are great if they 
work and an utter disaster if they do not, which I realize is 
not at all helpful, which leads to my question: How do we make 
sure that we are progressing at the right pace? Because it 
really comes down to whether or not the people who need to use 
the system can understand how to use it and if it works for 
them, you know, whether it is the warfighter, you know, or 
people in the combatant commands and every step along the way.
    Is this something that is going to be user-friendly to 
them? Is there an adoption period, and it takes a while to 
figure out? We all understand that, but we are sort of making 
sure that the system works for the people who have to use it. 
How can we make sure that we have more successes and fewer 
failures? Certainly, we are talking about the specifics of the 
Navy and Marine Corps Intranet, which is one of the biggest 
projects in that area, and I know there have been challenges 
there. So, basically, how we can make sure that we take the 
right steps so that implementing this information technology 
works and does not wind up costing us a lot of money to not get 
the system that we need. I just am curious about your ideas on 
that.
    With that, I will turn it over to Mr. Thornberry for any 
comments he may have.

STATEMENT OF HON. MAC THORNBERRY, A REPRESENTATIVE FROM TEXAS, 
     RANKING MEMBER, TERRORISM, UNCONVENTIONAL THREATS AND 
                   CAPABILITIES SUBCOMMITTEE

    Mr. Thornberry. Thank you, Mr. Chairman.
    I, too, appreciate the witnesses' written testimony, which 
I have been able to review.
    I share your concern. Sometimes you can buy the best widget 
possible, but the interface between the technology and the 
human is sometimes where some of the difficulties come. As a 
country and as a government, we spend a tremendous amount of 
money on information technology things. Sometimes I think, on 
one hand, we tend to take it for granted because we all expect 
it to work, and we have higher and higher expectations of how 
things will work, and yet, at the same time, it can present 
enormous vulnerabilities to us, and I know that you both have 
to look at both sides of it. So I look forward to your oral 
testimony, and I appreciate your both being here today.
    Mr. Smith. Thank you very much.
    With that, we will get started.
    We have John Grimes, who is the Assistant Secretary of 
Defense for Networks and Information Integration and the Chief 
Information Officer (CIO) for the Department of Defense.
    We also have Lieutenant General Charles Croom, United 
States Air Force, who is the Director of the Defense 
Information Systems Agency.
    Secretary Grimes, we will begin with you.

STATEMENT OF JOHN G. GRIMES, ASSISTANT SECRETARY OF DEFENSE FOR 
  NETWORKS AND INFORMATION INTEGRATION AND CHIEF INFORMATION 
                 OFFICER, DEPARTMENT OF DEFENSE

    Secretary Grimes. It is pretty evident that you have a 
grasp of our problem. So good afternoon, Chairman Smith and 
Congressman Thornberry, and other distinguished members of the 
subcommittee. Thanks for the opportunity to testify before the 
Subcommittee on Terrorism, Unconventional Threats and 
Capabilities on the importance of information and information 
technology--and I have made a distinction, ``information'' and 
``information technology''--to the overall mission of the 
Department of Defense.
    As you mentioned, I am John Grimes, Assistant Secretary of 
Defense for Networks and Information Integration, and I am also 
the Department's CIO. I have provided a written statement for 
the record. My comments now will focus on how the Department is 
leveraging information and information technology to rapidly 
respond to unpredictable, unanticipated and unknown global and 
national security challenges of today and, hopefully, of 
tomorrow.
    I am sure you are aware of the Department's 2006 QDR, the 
Quadrennial Defense Review, which recognized Net-Centric 
technology as a critical part of harnessing the power of 
information connectivity. It was recognized in this document, 
which has caused the Department to go into a focus on 
transformation on Net-Centric operations and activities that 
will provide a more efficient and effective force. The force 
includes the warfighter, the Intelligence Community and the 
business systems that support the warfighter. We call it, or I 
call it ``360.'' We have touched everything out there, as you 
indicated, Congressman Thornberry.
    The essence of Net-Centric operations is the ability to 
access information, to share information and to collaborate 
with others on the Net. To achieve this, we have established 
four fundamental goals: to effectively build, populate, operate 
and protect the network. And I think General Croom will 
elaborate on how we are doing some of that a little bit more, 
but first, let me explain what I mean when I say, ``build, 
populate, operate, and protect the network.''
    You may wonder what is he talking about or what does that 
have to do with defeating the Improvised Explosive Devices 
(IEDs) in Iraq and so on. It all comes down to one thing, our 
major focus, which is the sharing of information, of course, on 
a timely basis. ``Building'' the network means having IT 
capabilities and services available to securely move data on 
the Net, what we call the ``transport layer.''
    ``Populating'' the Net means that the data and the 
information is posted on the Net for an authorized user to have 
access to it any time.
    ``Operating'' the Net means putting in place rules and 
mechanisms to enable people to access the data and information 
they need while keeping the Net up and running.
    ``Protecting'' the Net means exactly that--securing the 
network against cyber attacks and protecting the information on 
the network and the infrastructure.
    Today, the Department operates three IP--Internet 
protocol--based Intranets. One is unclassified, and two are 
classified networks. The Department's unclassified network, 
what we call the Non-classified Internet Protocol Router 
Network (NIPRNET), is in use by over five million users. This 
network is connected to the commercial Internet for those 
agencies doing business with commercial vendors and 
contractors. The two classified networks are the Department's 
backbone that work for handling classified information. All of 
the Intranets operate on a global basis, which is a crucial 
point.
    Information sharing and protection of the network are my 
two major challenges. We are achieving information sharing 
through the applications of data standards and a process called 
the ``community of interest.'' A recent success story is the 
Maritime Domain Awareness Community of Interest Initiative that 
the U.S. Navy, the Department of Homeland Security, the Coast 
Guard, and the Department of Transportation demonstrated. This 
effort allowed these communities to easily exchange and share 
daily information on over 5,000 ships and vessels entering into 
U.S. coastal areas. What seemed to be a relatively simple thing 
to do was not until representatives of the various communities 
agreed on a way to describe or to tag their respective data, 
and I will tell you that everybody had their own standards or 
their own data at that time. Once that was accomplished, the 
community of interest used the Department's capabilities of the 
Net-Centric enterprise service program to actually enable the 
sharing of timely and critical information among the different 
entities to better secure and protect our coast, our ports and 
our waterways. This work is still in progress, and the 
community of interest will span significantly.
    To accomplish these kinds of successes, the Department is 
moving away from a grand design system approach as the basis 
for its information environment and instead is adopting a 
service-oriented architecture concept that is key to 
transforming to a Net-Centric operation. This will 
significantly improve information sharing between authorized 
users on the Net. The service-oriented architecture, or ``SOA'' 
as we call it, supports an information environment built on 
loosely coupled, reusable and standard-based services. It 
promotes data interoperability rather than application 
interoperability. SOA ensures providers can reuse existing 
pieces of application and data rather than recreating them 
every time a new player or an application is introduced. 
Moreover, it delivers new capabilities and changes quickly to 
the community of interest. It allows the Department to separate 
data from the applications for sharing information within and 
across the global information grid for Net-Centric operations.
    The second big challenge I face is information assurance 
(IA), which was mentioned earlier, protecting the data and 
defending the network. The importance of IA in protecting 
information and infrastructures simply cannot be overemphasized 
in today's threat environment. We have many major initiatives 
for improving the protection of our information and the 
infrastructures in the global environment as well as in 
preparing for future threats.
    In order to depend on the Global Information Grid (GIG) as 
the transformational weapons system that it has become, we must 
be confident that the network will be available, and we must 
trust the integrity of the data that is handled by the network. 
To this end, we continue to follow the tenets of the Department 
of Defense information assurance strategic plan that emphasizes 
enterprise-wide systems engineering for integrating the complex 
IA solutions. By doing so, the Department ensures IA is 
implemented and managed across the enterprise in a standardized 
manner.
    The Department is moving to managing investments by 
portfolio. The Department established four capability portfolio 
management pilots to implement this concept with the objective 
of ensuring that programs supporting the same capability 
portfolios are synchronized, that they are interoperable and 
that duplication is eliminated, ultimately, maximizing the 
effectiveness of our capabilities. This process is allowing the 
Department to shift to an output focus model that measures 
progress by the outcomes. The process offers the ability to 
look at the whole rather than to struggle to determine if we 
should be connected between the pieces or the piece parts, one 
of the four pilots in this joint network operation capabilities 
area I am responsible for.
    While the Department is moving to the portfolio management 
approach for managing its investments, it continues to 
aggressively transform its acquisition processes. Every aspect 
of how we do business is being assessed and streamlined to 
deliver improved capabilities with the focus on upfront 
investment decisions and to ensure that the requirements are 
defined in terms of effect-based outcomes and that the 
resources are mapped according to the joint capabilities area. 
In other words, we are synchronizing the acquisition, the 
requirements and the resources to ensure successful delivery of 
IT products and services.
    We continue to address ways to improve IT acquisition 
management and procurement processes. These initiatives are 
aimed at improving results, saving time and saving money while 
delivering the capabilities, IT services and other products our 
customers need on a timely basis.
    People are our most important asset and critical to 
implementing the Net-Centric vision and our goals. We have a 
close partnership with the Information Resources Management 
College at the National Defense University to develop graduate-
level courses and programs to meet the current, emerging IT 
management skills needed by the military and the civil 
workforce within the Department of Defense.
    Additionally, the Department has a major initiative to 
recruit talented IA, or information assurance, personnel under 
the IA scholarship program, which has been very successful to 
date. Last year, we awarded 23 new IA scholarships to 
university students and provided grants to universities and 
colleges to improve their IA research and coursework. We 
currently have 75 national centers of academic excellence in 
the information assurance education located in 31 States and 
the District of Columbia. This is a real success story.
    By now, it should be evident that information and 
information technology are critical resources in every aspect 
of the Department's operation. The Net-Centric operation's 
transformation will enable the Department to become more 
effective and more efficient. This means timely situation 
awareness, information that will allow for superior decisions 
by our senior leaders as well as the warfighters. The 
Department will continue to emphasize the DOD strategy 
implementation for information and data sharing across numerous 
domains, enhance the information protection and improve network 
defense security. We will continue to transform the acquisition 
process to put the best IT capabilities in the hands of our 
soldiers, sailors, airmen, and Marines in a timely manner.
    Mr. Chairman and members of the subcommittee, I thank you 
again for this opportunity to speak to you today. We greatly 
appreciate the support you have given us, and I look forward to 
our continued collaboration. I will be happy to answer any 
questions that you may have about the Department's IT 
initiatives.
    Thank you.
    [The prepared statement of Secretary Grimes can be found in 
the Appendix on page 31.]
    Mr. Smith. Thank you very much.
    General Croom.

 STATEMENT OF LT. GEN. CHARLES CROOM, USAF, DIRECTOR, DEFENSE 
               INFORMATION SYSTEMS AGENCY (DISA)

    General Croom. Good afternoon, Mr. Chairman, Congressman 
Thornberry, members of the subcommittee.
    My name is Charlie Croom. I am the Director of the Defense 
Information Systems Agency (DISA). I am also the Commander of 
something called the Joint Task Force for Global NetOps (JTF-
GNO). Thank you for the invite to be here, and I am pleased to 
be here. I have provided you my written testimony for the 
record. What I would like to do, sir, with your permission is 
to address briefly some slides I have provided you. The package 
looks like this.
    Mr. Chairman, if I may direct your attention to the second 
page, which is entitled, Interlocked Missions. As the Director 
of DISA, I am responsible for engineering and acquiring and 
sustaining the global information grid, and as such, I report 
to Mr. Grimes as my direct supervisor. I have another hat as 
the commander of the Joint Task Force for Global Net 
Operations, and in that hat, I direct the operations and 
defense of the network, and I report directly to General 
Cartwright, the Commander of Strategic Command.
    I mention both of these because these are very synergistic-
type roles and jobs where, in one, I am responsible for putting 
in place this global information grid, and in the other, I am 
there to operate and defend it, and I think the synergy works 
very well in terms of an organizational structure. I would add 
my experience is IT is a team sport, and on this slide are the 
rest of the teammates. The Joint Staff, the National Security 
Agency (NSA), the rest of the Office of the Secretary of 
Defense (OSD), and the combatant commanders are services which 
I have reporting to me under the Joint Task Force's three-star 
equivalents from each of the services to operate and defend the 
network, law enforcement and Homeland Security. So the network 
ties and is certainly global to everyone.
    If we could go to page three, I will try to give you an 
understanding of the magnitude of this global information grid. 
We support 31 agencies, 9 combatant commanders, 5 services. We 
support over 3,500 posts, camps and stations. We have 120,000 
lead circuits, 5 million users--the immensity of this is huge--
both unclassified and classified networks, as Mr. Grimes 
described. The unclassified network then is tied to this 
Internet, and the Internet is both a blessing and a curse, one 
because you can pull information but, two, because it allows 
the vulnerabilities to leak to our networks.
    If I may refer to slide four, please, Global Presence. To 
conduct this mission both on DISA and the JTF-GNO, we have a 
global presence, and I just wanted you to see that we extend 
across the globe, and the purpose of this is basically to sit 
at the side of the operators. They are the ones who use the 
networks to move information, and it is important for us to sit 
with those operators to ensure their needs are met.
    The next slide, please; slide five, Special Missions. In 
addition to the operation of this Global Net and the 
implementation, we do have a number of special missions--
providing communications to the President. The White House 
Communications Agency reports to me. Providing support to the 
National Military Command Center and the chairmen, 300 folks 
support that Joint Staff Support Center, fusing information for 
their needs for daily crises. The Defense Spectrum 
Organization, not only meeting the needs of strategic planning 
and architecture for spectrum but also major databases that 
support the warfighter on the tactical field. The Defense 
Information Technology Contracting Agency located in St. Louis 
does over $3.5 billion worth of contracting for information 
technology. And then the only Joint Interoperability Test 
Center within the Department of Defense, they are to test 
equipment before we place it on the network to ensure 
interoperability and security.
    The next slide, please. I would like to address now what I 
think are some of the good news stories about what we are doing 
within DISA and what we are doing within the Joint Task Force-
Global NetOps. First of all, with your support, you provided 
funding for something we called the Global Information Grid 
Bandwidth Expansion, almost $800 million, where we bought fiber 
instead of leasing, and we own the fiber, and now we are 
turning it on. The results of that simply are that we have 
doubled the bandwidth on the unclassified network this past 
year. We have almost doubled the bandwidth on the classified 
networks, and that is shown on the slide on the left. On the 
slide on the right, you see the population growth. Although 
significant, what it tells me is we are now providing more 
bandwidth per customer, and this is exactly what we want to do 
and need to do.
    The next slide, please. Slide seven addresses our 
computing. Where the first slide addressed the transport layer, 
this slide now is addressing the computing layer, and I think 
this is a great news story as well. At the top left, you see 
that we are providing mainframe computing at less sites. Our 
workload is increasing by 300 percent. At the top right, you 
see our personnel decreasing by 85 percent. At the bottom left, 
you see our costs are being driven down every single year as we 
provide that 300-percent workload, and the best news story of 
all is, while we are doing this more work with less people with 
reduced costs, we are maintaining best in class as measured by 
Gartner Surveys. If we could only do this for all of our work.
    The next slide, please. It refers to our commercial 
satellite services and is, I think, another good news story for 
the Department of Defense. What you see in blue is what we pay, 
what the government pays for an equivalent transponder on a 
commercial satellite. If I can refer you to 2005, you will see 
we paid $1.1 million for a commercial transponder. The market 
average is shown in red, $1.5 million. So we in the government 
are buying a transponder for 25-percent below market average. 
We are doing that and also improving our processes. We have 
taken what was a 79-day requirements process and have driven 
that down to 21 days with a 4-hour emergency response, and as 
we did the last customer satisfaction survey, we increased our 
customer satisfaction from a 3.9 to a 4.5 out of a 5 point 
scale. So, once again, we see costs being driven down. We see 
our timelines being reduced, and we see our customer 
satisfaction increasing.
    The next slide, please, slide nine. Slide nine really asks 
you to shift now for second and talk about information 
assurance and securing the network. These three points are just 
simply what we do, what we focus on, in trying to secure our 
network. First is to certainly identify the standards, strong 
governance, strong configuration management on the equipment 
and the network, itself, and we have plenty of automated tools 
that we are bringing on line to do that. The second area is 
layered defense. We have always had a layered defense, but we 
are improving the tools from the layer of where we touched the 
Internet to back to where the user sits. Finally, the identity 
management, and identity management is simply, do we know who 
is really using the network? And you might have been aware that 
this military ID card has a common access card (CAC) personnel 
key identifier on it, and now, before a DOD member can use his 
computer on the unclassified network, he has to insert this in 
his computer where he is now identified. So we have done away 
with passwords. He now has a physical token plus a pin number. 
This has, in our estimates, reduced intrusions by at least 46 
percent alone. We are at 92-percent implementation across the 
Department of Defense. Over 10 million CAC card users are 
issued; 3.6 million are active right now.
    If I may, the next slide, please. So how are we doing? 
Slide 10 tries to address that. You can see the top left. First 
of all, let me say, this is talking about the unclassified 
network. To my knowledge, on the classified network, we have 
not had an intrusion, primarily because it is disconnected from 
the Internet. It is a stand-alone, private network. Now, you do 
not know what you do not know, but to my knowledge, we have not 
had an intrusion on the classified network, so I am going to be 
talking just about the unclassified network right now. Now, 
that does not mean it is less important. Warfighters use the 
unclassified network. The Defense Logistics Agency orders all 
parts and supplies across the network, so you do not want 
toilet paper ordered instead of bullets. You do not want people 
messing with your network. Transportation command uses this as 
they move cargo, passengers, ships, as they deal with FedEx and 
other suppliers, so the unclassified network is extremely 
important, and we must have it for the warfighters.
    The top left shows that the number of attempted intrusions 
has significantly increased over the last three years.
    The top right of this slide shows that, although the 
attempted intrusions have increased and, I might add, the 
sophistication of the intrusions has increased, we have been 
able to start reducing the number of successful attacks on our 
network, and the bottom left shows that those attacks basically 
are 2 per 100. That is still too many, but the trends are 
right, and we are starting now to put equipment in place that 
will automatically scan and remediate networks, and we are 
getting much better at this, and we are making it machine to 
machine. So I think, in my view, we are pushing down on the 
right train.
    If I can now direct your attention to the next slide, slide 
11. It is not numbered, but it is called, Acquisition--It's All 
About Speed. We are now going to shift from the vulnerabilities 
of our networks to acquisition because I think you wanted us to 
address that.
    My personal belief is that you cannot acquire information 
technology like we do ships, tanks and airplanes. A 6-year 
cycle, a 7-year cycle is far too long when technology is coming 
out at a minimum of every 18 months. I am stating the obvious.
    Mr. Smith. We need to work on the ships, tanks and 
airplanes acquisition piece, too, as I am sure you well know, 
but you are right. We need to do better on that, but we 
certainly cannot have the same principle.
    General Croom. I believe that we can approach speed and 
stay within the acquisition rules that exist today and the laws 
today. We just need to modify our processes. So I have tried to 
list some things that we can talk about in great depth but that 
I will try to cover very quickly.
    First of all, ABCs. Adopt if it exists; Buy commercial, B; 
C, Create only as a last resort. Too often, we are going into 
an acquisition process where the acquisition process has 
already been completed by another--Army, Navy, Air Force--and 
we refuse to adopt it. We refuse to adopt it because it did not 
meet our 100-percent requirement, and so I would suggest, do 
not settle for the 100-percent requirement. Drop it down to an 
80-percent. Adopt an acquisition that is ongoing and fall in on 
it, and we have a number of examples of where we have done 
that.
    Think big, build small, scale fast. It is not a new 
concept, but the trouble is sometimes in our zeal to do right, 
we cannot limit what we do, and so it becomes super huge, be it 
Navy Marine Corps Intranet (NMCI), be it in any number of other 
instances. So you have got to be able to--in my mind, it is 
okay to think big, but when you are doing an acquisition, you 
have got to chop it in chunks so you can deliver it fast, and 
if you make a mistake, you can afford to make a mistake.
    Paralleling acquisition processes. Today, it is a long 
serial process. It starts on a large program, 18 to 24 months 
just to define the requirement, 18 to 24 months. Google takes 
an idea and, in 2 weeks, has it in a lab and, in 3 months, has 
a prototype and on the network, so we spend 18 to 24 months and 
500 pages to prescriptively and descriptively describe the 
requirement. We could reduce that just by reducing the number 
of pages, in my view.
    Acquisition processes. It then takes us three years to 
build it. It takes us six to nine months to test it, three 
months to certify it for security. The way they do it in 
industry is, when you are building software, they build it, and 
they have the operator sitting there with you, with the 
developer. They bring the tester in. They bring the certifier 
in, and you do it in small chunks and in parallel pieces, and 
you do not do it in a serial process. It does not break any 
acquisition rules.
    Tailored acquisition approaches. Sometimes you do not have 
to buy hardware or software. Sometimes you can seek a service, 
and so we are trying to do that at DISA. Instead of putting 
hardware on our four left mainframe computer floors, we went 
and bought a service, so now it is like a utility. So, if I 
want computer storage or computer capacity, I turn it on like 
tap water. I do not have to have hardware sitting on my floor.
    I have already talked about the requirements process.
    Sir, I would like to then close on the last slide just by 
saying I am fairly optimistic. What I am saying is being echoed 
across all of my teammates. I thank the organization we have. 
Between the Defense Information Systems Agency and Joint Task 
Force Global Ops, it is exactly right on.
    I would also emphasize that the Defense Information Systems 
Agency is a combat support agency. We do not build for 
ourselves. We build for the warfighter, and so, as we take 
these needs and build the network out, as we bring command and 
control programs forward, as we support the logistics world, 
these are programs that support directly to the warfighter, and 
so it is really important to us to deliver it with speed 
because I believe information is America's greatest weapons 
system, and if that information is provided properly to our 
soldiers and quick enough, we will save lives and protect 
soldiers.
    So that is all I have, sir. It has been a pleasure to talk 
with you, and I will look forward to the questions.
    [The prepared statement of General Croom can be found in 
the Appendix on page 46.]
    Mr. Smith. Thank you. Thank you very much.
    I have a couple of questions. I think it is an outstanding 
presentation and shows how we have learned and grown in terms 
of the way we are going to develop our networks, our computer 
networks, and I think that is extremely encouraging.
    Walk me through a little bit on the NMCI piece and sort of 
what we learned, how we want to do it better, because that was 
sort of--you know, the question was not really terribly focused 
when I asked it at the beginning, but a lot of times, we go for 
the big, huge system that is going to solve all of the 
problems, and I thought your 80-percent capabilities point was 
just outstanding because, when you have got so many different 
pieces and so many different people you want using the system 
and if you are holding out for that one big one that is going 
to make everything work, you are complicating it to the point 
where it cannot be used.
    If you can, walk us through a little bit of the lessons. 
One of the concerns that has been expressed to me by some 
people who operate on the NMCI, for instance, is all of the 
tech support has to come from someplace other than locally 
because it is this big network system, and they do not have the 
local IT person who can fix their problem. They spend a lot of 
time, you know, off line, waiting to get in touch with wherever 
the center is--in San Diego or Virginia Beach or wherever they 
have to go to sort of get it fixed. So answer that specific 
piece, and then, more broadly, what have we learned from NMCI, 
and what are we going to try to do differently as we move 
forward and put in place some of these networks that you both 
have talked about?
    Secretary Grimes. Let me start by saying that I have 
challenged the Navy on this. We have had a couple of meetings 
with the Assistant Secretary of the Navy for the acquisition 
responsibility.
    What I have found over the past year that I have been in 
this job, visiting some of the comments that you have just made 
or that I heard, is that the user was not brought in, as he was 
mentioning earlier, when they were developing the system, and 
when the system was delivered, they never anticipated the 
number of applications that were going to have to be run.
    For example, I have heard the number that they started out 
with at Patuxent Naval Base to be approximately 5,000 
applications, and before they knew it, the contractor ran into 
14,000 or 15,000. The front-end work on doing this effort was 
not evidently very well-documented. That caused a delay, and of 
course, then the contractor who was betting on selling what 
they call ``seats'' was not able to deliver seats where he was 
generating his revenue, and of course, you know what happens if 
you are in a company like that. They are looking for revenue.
    So I would say the largest problem that I have detected--I 
have been out in Hawaii where they really have had the 
heartburn--is that initially 10 years ago--or I guess it is 6 
years ago now--the operator or the users were not incorporated, 
and the acquisition community decided what they wanted and 
delivered something that was not very efficient, and in the 
meantime, you are in a contract status, and every time you 
cause a change, you have got a very large bill, and we know 
during the Timor and during a couple of other major events out 
in the South Pacific that, when they had to reconfigure the 
system on the weekends to support Admiral Fargo and then later 
Admiral Fallon, who they wanted to head the dynamics of the 
system, it changed. They got a very large bill, which is not 
the norm in the system.
    So I think part of it is probably the way we stated the 
requirements that the government did initially. The acquisition 
strategy that was set forth, which is why we are focusing right 
now with Secretary Etter, is the acquisition strategy, and I 
have an expert who is working very closely with them.
    So I do not know if you wanted to answer.
    General Croom. Well, it is very easy to Monday-morning 
quarterback.
    Mr. Smith. I would not look at it that way. I would just 
think of it as sort of lessons learned.
    General Croom. Okay. First of all, I would say it is a very 
noble goal, and I had nothing to do with the acquisition. My 
personal view is that they were trying to catch up, if I may, 
with the other services who I believe were far ahead in terms 
of their network technology, and so I give them credit for 
trying to put money down and solve a problem.
    The first issue I think Mr. Grimes had exactly right was 
that they did not know exactly how big the problem was. See, 
these networks were not installed under a program. When I was a 
lieutenant and a captain, we were with a bunch of good 
sergeants, and we started taking and putting computers on 
desktops, and the next thing you know, we were running and 
cutting holes in floors and walls and connecting these things, 
and so they were put up by a bunch of hobbyists because, at the 
time, none of the services had programs to do this, and it 
stretched out as a hobby--no configuration management and no 
security--and so this network of 15,000 different networks that 
are in place today were all built by different people under 
different circumstances under different methods.
    Mr. Smith. So each went down and sort of pulled that big 
mess together.
    General Croom. Right. So they did not really understand how 
nonhomogeneous this thing was, and so then when they got there, 
they also found, as Mr. Grimes mentioned, thousands of unique, 
independent software running on this network that somehow they 
had to interface. So those two problems alone were very 
difficult.
    Now, if we were to do it today, I would suggest chopping 
that problem up into smaller chunks. Prototype so that you can 
learn what you are doing on that first chunk, and then take 
that knowledge before you deliver the second chunk and the 
third chunk and the fourth chunk instead of trying to tackle it 
all in one gulp.
    The only other disagreement if I could--and I am speaking 
from DISA, from the Air Force, when I had to write a report to 
Congress on why we were not doing an NMCI-like approach. The 
Air Force at the time believed that it was very important in 
terms of having the right mix of people operating and 
sustaining the network, and the Air Force's philosophy at the 
time was one-third military, one-third civilian, one-third 
government contractor. There was great synergy there. One, we 
felt the network, because they were a warfighting network, was 
important in order to have some sustainment of talent within 
our own Air Force, but usually, the young airmen could not keep 
up to the civilians who had been working there for years and 
who had been in place for years, and the contractors, what they 
do is they bring in new technology.
    So, between the one-third, one-third, one-third, we have 
the high energy of a young sergeant who is learning the 
business. We have the sustainment capability of the civilian 
who has been on the job for a long time in the ops center, and 
we bring in a contractor who can bring new technology, and they 
learn from each other. So I think that still applies. 
Unfortunately, a lot of times, either personnel cuts or budget 
cuts drive us to one solution or the other, but I would say I 
stick to my rules, and I will think big, but I will build small 
and where you have success scale rapidly.
    Secretary Grimes. I would like to follow up just on two 
points. One is that it has not addressed the interface with the 
classified networks which the Navy has to operate and which 
goes back to our Net-Centric operation, so that was another 
thing that took a lot of time and, in fact, has not been 
totally fixed.
    Second, we are working closely with them on their 
acquisition strategy to do part of the approach and breaking 
the program down somewhat where it would not be one contractor 
turned key, and so that acquisition strategy has been working 
great.
    Mr. Smith. Thank you very much.
    Mr. Thornberry.
    Mr. Thornberry. Secretary Grimes, you have responsibility 
to set standards for IT, which is purchased by the Department 
of Defense, and yet, you do not have control of the money that 
is used to buy the stuff.
    Talk to me a little bit about the tools you have to ensure 
that services and others comply with the policy standards that 
you have set, whether that is enough and how that works.
    Secretary Grimes. Well, I do have quite a bit of control, 
oversight of the money, although I do wrap up the total budget 
of the Department, but there are a couple ways that I like to 
enforce where we are going. The standards we use--by the way, 
they are mostly commercial standards as you well know--are 
the--I had in my mind the two or three things that I was going 
to say to you. I will have to back up.
    General Croom. Well, while you are thinking about that, I 
would add that he also has me as a tool.
    Secretary Grimes. Oh, I know. Here is what I want to say.
    I am also the Milestone Decision Authority (MDA), the 
acquisition authority, which they have to come through me, the 
service for all of their major acquisitions. I was trying to 
get the flow.
    So I have oversight but also the MDA, or the Milestone 
Decision Authority, which is delegated to me for IT from our 
Acquisition, Technology and Logistics (AT&L), or Secretary 
Krieg. So I do that.
    Third, there is also some oversight that sometimes gets in 
our way, and that is the Inspector General (IG). They have a 
responsibility. On the front end, they have gotten more active 
in recent times. So that is another way of finding out if 
someone is off.
    Last, I mentioned to you earlier in my remarks ``portfolio 
management.'' As we move into portfolio management, we are 
going to have all of those folks who have got to come to us 
under our portfolio now and look at trades, and that also, if 
you will, enforces some of the things in looking at 
duplications and synchronization, and we are in a position now 
with the new process that has come out of QDR called the 
Deputies Advisory Working Group, the DAWG--I do not know if you 
have heard of this or not. It is very effective and I sit 
there. So those checks and balances, I believe, today give us 
quite a bit of say. Also, I have a CIO counsel through the 
Department of Defense, and we have a pretty effective operation 
or coordination and collaboration in that.
    So, in that regard, I believe today we have that pretty 
well under control. That was one of my questions, actually, in 
my original confirmation hearings was the budget process, and I 
was not aware--I had not worked on that side, and I had been in 
the Department before. I was more on the command, control, and 
communications (C3) side, which is different than the IT side, 
but I believe the things that have happened in the last year 
give me--I submit the budget, the IT budget, to Office of 
Management and Budget (OMB). It is my shop that does that. So 
we have a very good picture of what is happening in it.
    Mr. Thornberry. Okay. Thank you.
    Mr. Smith. Ms. Castor.
    Ms. Castor. Thank you, Mr. Chairman.
    Thank you, gentlemen, very much for your presentations.
    I was interested in the positive trend on vulnerability 
reduction. Can you share with us what you believe the new 
vulnerabilities are and the sources of potential attacks and 
then what you are anticipating the future holds?
    General Croom. I certainly can share in a general way, and 
the sources of attack I will kind of have to defer to, maybe, a 
classified session, but the sources in general--the first way 
an intruder gets in--by the way, let me start off by saying we 
have seen a significant trend move from the hacker to the 
criminal, who is still very active by the way because they are 
making money on these intrusions, not off the government so 
much but off of the commercial world.
    We are seeing some more nation-state actors come on, so 
they are a little bit more professional. I will just leave it 
at that.
    The first way they get in is through passwords. It was the 
number one way. It was the front door, and they got in quite 
easily. The name of your dog just was not a good password. They 
can break that very quickly. So that is why the Common Access 
Card (CAC). Like I said, as soon as we implemented this, we saw 
a significant change in the way the intruders were acting. In 
fact, when we implemented this, what we saw was what we call 
phishing--socially engineered e-mails trying to get your 
passwords. We saw a significant increase in that. So they are 
very reactive. We can sometimes see their responses within 
hours.
    Ms. Castor. How are you able to monitor that? Is it 
something in the system?
    General Croom. I would refer that question as well, if I 
could, to a classified system, but you know, we have 
capabilities, automated capabilities, that look at intrusion 
activity just as we monitor the network traffic across the 
network.
    The second method for getting in was software 
vulnerabilities. Software vulnerabilities come in all software. 
Microsoft is a good example. We look at about 300 
vulnerabilities a month. We selectively identify a number of 
those and pull them down and issue patches across the network. 
We have significantly improved our ability to do that, and when 
we started this about 3 years ago, we issued 18 patches over 
the entire year. In January of 2007, we issued 19 just for 
January. So our ability to issue patches across the network and 
our efficiency in patching has significantly increased.
    The third method then is--you hear about botnets. This is 
where a computer can control many computers, and then criminals 
actually sell these thousands of computers that they control 
for other means, but the way they control your computer is 
because something in your computer allowed them to control it. 
You did not have a good configuration. So we have set standards 
to the configuration of that computer. We have a gold standard, 
and we lock that computer down, and we significantly reduce the 
ability for them to come in and control. In fact, in the 
numbers we have, we have seen a 110-percent increase on the 
Internet for these botnets, these controlled networks. Over the 
last year, we decreased 80 percent on our dot-mil network, on 
our military network. So configuration standards are extremely 
important, and we are now getting the tools in place to lock 
those machines down and automatically check them, and you know, 
when you have five million users on your network, you do not 
want to be doing this manually. So we need your support as we 
go and identify the automation tools to be able to scan the 
networks and lock those networks down.
    Mr. Smith. Mrs. Drake.
    Mrs. Drake. Thank you, Mr. Chairman.
    Thank you both for being here.
    I would like to ask you--because I have heard two things on 
this. I have heard there have been concerns regarding our IED 
jammers and our communication, that our troops in the field 
would either be doing one or the other, and certainly, they 
need to be able to do both. Then I have read that the Navy has 
helped the Army, and the Army can now operate these jammers so 
that they can also communicate.
    So I wondered which it is, and if it is still a problem, 
what can this committee do to help in that endeavor so that we 
are not putting our troops in theater in that position where 
they are picking one or the other?
    Secretary Grimes. Well, I was in the theater a year ago at 
this time, and that was one of two major issues. One was 
sharing information across various domains, but the other one 
was spectrum, and this is a spectrum issue, a radio frequency 
issue, and at that time, it was pretty severe. We were 
interfering with our own self, if you will, and the IED issue 
was not as pervasive a year ago as it is today.
    Now, with that said, the Navy loaned the Army in this case 
electronic warfare officers to go out to assist because of a 
couple things. The Navy electronic warfare aircraft are used to 
hopefully, what they call, ``burn,'' ``explode'' the IEDs 
before the time, you know, they go out. That interferes from 
that airplane. So, today, they deconflict before the mission to 
allow the Army or the Marines to know that this mission is 
about to take place at this time before they go out and do an 
IED mission. So it is a very complex operation, and it depends 
on where you are, too, in the location and the type of jamming 
that you are going to do of the IEDs or set them off. There are 
a number of things that they use. By the way, the enemy just 
changes as fast as we change to the newer technology. Some of 
it is just quite scary.
    So it is not either way. It is an operational--and it goes 
back again to information sharing. In fact, when I was over 
there, one of the problems they were having in Afghanistan is 
that the information was not getting to the units that were out 
looking for IEDs if someone else had identified an area 
earlier, and I will tell you they had lost four Army engineers, 
at the time I was there, looking for IEDs, and they felt that 
the information was not being shared, but I think a lot of that 
has been resolved. The other part of that was the communication 
shared, the type of radios that are with the IED force at that 
time, including some satellite capabilities, direct.
    Mrs. Drake. So it sounds like there is good progress, and 
if there were something you would need this committee to do, 
you would let us know.
    Secretary Grimes. Yes. I know that General Meeks is doing a 
great job in his task force. I have the Spectrum business for 
the Department of Defense. We work very closely with them, and 
we also have a major program. In fact, General Croom is the 
office that manages the Spectrum for us--I am the policy guy--
and we are working very closely with them.
    Mrs. Drake. I just have one last question, General, and I 
am glad to hear that you are using off the shelf, that you are 
talking about the 80 percent, because I have had it brought to 
my attention where people think we are purchasing programs or 
going out into the private sector in contracts and having 
things created for us that we are not able to continue using, 
that you might have it for you, but possibly Homeland Security 
could use the same thing.
    Is there a crossover so we are not recreating the same 
thing and spending taxpayer dollars on the same technology that 
might have been created for you or is there some way to make 
that happen? I know there is an intellectual property right, 
too, if you create something, but if we buy it, as taxpayers, 
for Department of Defense, is that available now for other 
government agencies?
    General Croom. Well, first of all, I think this is an area 
ripe for improvement in terms of sharing although it has been 
on our list to do for many, many years. It is hard to know what 
is out there. It is a four-year share, number one. And two, 
sometimes a contracting vehicle limits your sharing. The 
boundaries of the contract will say sometimes you are procuring 
this for the Department of Defense so you cannot share it with 
Homeland Security. Sometimes that contract will say you are 
buying it for the Air Force, so you cannot even share it with 
the Army or Navy. It is kind of interesting the way the 
acquisition rules are and the way they are applied, but you 
have to look at the rules of the contract in which the product 
or the service was acquired and whether that contract permits 
folks outside the boundary that was originally established to 
use it.
    There are many things out there that can be adopted, and 
like I said, the problem with adoption is you have to fall off 
your requirement. That is the culture that has to be changed. 
Once the culture changes, you can, you know, make other things 
happen.
    Mr. Smith. Is that simply a matter of the culture or are 
there regs written that make it more difficult if you come back 
and say, ``Hey, gosh. This is a great thing out here, but it is 
only 80 percent of my requirements''?
    General Croom. Yes, there are some regs. Obviously, when 
you write a requirements document, sitting on top of that 
requirements document is key performance parameters called KPPs 
under the joint staff. Those key performance requirements 
specify what you have to deliver to.
    Mr. Smith. Is there something we can do in committee here 
that could give you greater flexibility on that piece?
    Secretary Grimes. Well, I would like to interject something 
here. You have got to watch when you talk software as you get 
closer to a weapons system where it may be designed for that, 
and on the other end where it is more of a common user--Windows 
or Microsoft or something like that--we do have a program that 
has been a real success story, and OMB is looking to adopt it, 
and it is where we think we have saved a void, I should say, of 
about $2.5 billion since 1999. It is the sharing of contracts 
and buying software. The Air Force, in particular, has been a 
big user of that. So there is unique software. Then there is 
the common off the shelf, and I think that we have a pretty 
good program to say it has been around, and we would be glad to 
share that with you, but I can tell you, the closer you get to 
a weapons system, the embedded IT, it is much different.
    Mr. Smith. But I mean that is very specialized. That is 
not----
    Secretary Grimes. Correct.
    Mr. Smith. Let me make it clear. When I say, you know, you 
only meet 80 percent of your specs, I mean, if it is a weapons 
system, it is like, you know, we meet 80 percent of our specs, 
you know, and this will get to its target. It just does not 
blow up. I mean, I understand that there is a point at which 
100 percent is absolutely required, but based, you know, on 
General Croom's comments about--if you are looking at, you 
know, going from--that the Army has got a system, you know, set 
up that may not be commercial but may be internal but it fits 
80 percent, you know, of Air Force specs, that is what I was 
asking, and I think you were going to try to take a stab at----
    General Croom. I was trying to think of something before I 
put my foot in my mouth.
    Mr. Smith. That is all right. We do not have to do that 
over here. We are blahhhh. You are more cautious.
    General Croom. Sometimes in our zeal to get it exactly 
right, we would put our requirements in such specificity that 
it becomes technical requirements. So they are not broad 
statements of capabilities. They become technical--milliseconds 
of delay, a number of screen refreshes. How many objects go on 
a common operational picture? It is in the tens of thousands. 
So then, all of a sudden, you are stuck to a specific number 
that might have been good the day it was developed but is not 
going to be good a year and a half from now or two years from 
now or whenever when you are delivering this or it ties the 
hands.
    So I think that this is not a legislative problem. I think 
this is something that has to be worked within the DOD as we 
learn to improve our processes. We need to specify the criteria 
on which we require things in broader statements and not 
specific statements to allow a little bit more flexibility in 
what we are delivering to.
    Mr. Smith. What would the flexibility be? Let us say you 
had a situation like the one you just described, and they write 
the regs that they want, and you take a look at it and go, 
``Well, wait a second. We have got this great product out here 
that does not meet this one, but that one should not be a 
requirement.'' What is the flexibility at that point to go, 
``Hey, can you change these''?
    General Croom. Well, it is a long process.
    You know, General Kadish wrote a report. He was the missile 
defense lead. Then after he left office, he wrote a report 
which I think is available to you all, but one of the things he 
talked about was sometimes when you are developing something 
new and you have gotten--the last 20 percent of the 
requirements is always the hardest to build to--okay?--but 
sometimes the 80 percent that was delivered is 5 times better 
than what you have in the field, but you are not able to pass 
the wickets and deliver it to the field because you have not 
met the final criteria, the 20 percent left. So General Kadish 
was recommending, you know, it ought not to be the acquisition 
czar that makes the decision on whether the capability can be 
delivered in the field. It ought to be the operator. The 
operator ought to say, ``You know, I know it is only 80 percent 
of what we originally thought we could deliver, but it happens 
to be 5 times better than what I have, so I am ready to have it 
delivered,'' and so I think those types of things are being 
discussed within the Department.
    Mrs. Drake. And I am wondering, Mr. Chairman, how we can 
keep trying to get our hands around this issue? Because yours 
is a little different than what my concern was, which is that 
the taxpayers are out there always recreating the same thing 
and, like you said, not even having a way to know that this has 
been created for Homeland Security, and now you are looking at 
some system to watch the border in Afghanistan, and do we have 
it over here? And they do not seem to be playing well together.
    Mr. Smith. Right. Well, I think it is not so much they are 
not playing well together as it is they are operating their own 
stovepipes. There is not a conflict. Well, a good example is--
take that question out.
    I mean, when you are looking for a system, do you think and 
go, ``Okay. This seems like a similar thing to something that 
Homeland Security would be doing. Let us take a look and see 
what they have got''? Do you do that? Is Mrs. Drake right? Are 
there then sort of, you know, territorial blocks at that point?
    General Croom. Yes, I think we have to do that to be good 
stewards of the taxpayers' dollars. It is very difficult to 
know, though. I mean, these are big, big, large organizations, 
and to do that search and to do it reasonably is a very 
difficult task, and then you have the cultural differences, and 
again, you know, it is always after they describe it. ``Well, 
that apple is not what I really wanted. I wanted the orange.'' 
So it was not close enough. I mean, I will give you an example.
    DISA had to develop a portal. I just came from the Air 
Force to DISA. The Air Force was developing a portal. DISA is 
developing a portal. The Army has a portal. I went to my folks 
at DISA and said, ``Well, why don't we use the Army portal?''
    ``Well, their portal is not as good as ours. It is not 
architecturally developed as well. It is not engineered as 
well.''
    So I asked, ``Well, how many users are on the Army 
portal?''
    ``One point eight million users.''
    ``How many users are on the DISA portal?''
    ``Forty thousand.''
    ``Okay. So what is the decision?'' I said, ``Move over. Let 
us adopt the Army portal. Let us make that a joint portal. We 
will spiral that out.''
    So that is what we collectively agreed to do. Across the 
Army, Navy and Air Force, we adopted the Army portal, not 
because it was the best solution. It just happened to be the 
biggest one, and we could then move them forward in a future 
spiral to improve their architecture. So that is the type of 
thing that needs to be done, but it is very difficult to do for 
a lot of reasons--the way the money is, the years you get the 
money, how you share the money across services, the 
technologies, you know, the culture. It is very difficult.
    Mrs. Drake. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Smith. Thank you.
    Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    In my business background and even in our own office, we 
typically replaced all the hardware on an average of every 
three years. Right or wrong, that has generally been the model.
    Do you have a similar goal, and if so, where are you in 
terms of being able to keep up what you think is the most 
prudent replacement just on the hardware side?
    General Croom. The services basically have a similar goal. 
Although, I think it is expanding out because we did that early 
on as the desktop computer was significantly growing in 
capabilities. Now that desktop computer is far superior to the 
capabilities we almost need, so I think you see that trend 
slowing down and starting to stretch out. That is not a DOD 
mandate. The services buy their own equipment. The Army, Navy 
and Air Force buy their own equipment, but basically, they have 
a three- to five-year replacement rule on average.
    Mr. Conaway. Everybody buys separately. How do you 
collectively continue to make those decisions? It seems that 
everybody is buying. How does that work.
    General Croom. Actually, the services do have, group their 
requirements together and buy large buys and actually drive the 
price down very, very well, well below the market average price 
for end items on desktops. I think they are very, very good at 
that.
    Mr. Conaway. Is your group responsible for making sure that 
all computers have a licensed version of Microsoft XP, 
whatever, those kind of reviews and audits to make sure that we 
are at least obeying all the intellectual property laws across 
all of our networks? Do you do it? Where is that done?
    General Croom. That is done at the individual service 
level.
    Mr. Conaway. Thanks, Mr. Chairman.
    Mr. Smith. I want to follow up on the acquisition piece, 
putting aside for the moment the requirement discussion. That 
was helpful. What about in terms of other transactional 
authority and the ability of your contractor to go around the 
regs and just see something on the shelf and say that is what 
we need and not go through the normal procurement process, so 
when, I guess it is the defense information technology 
contracting organization that is responsible for this, what is 
their flexibility? Well, I have asked the question.
    General Croom. Sir for large buys, you just can't go around 
the rules.
    Mr. Smith. How large?
    General Croom. There are dollar thresholds. I don't know 
them off the bat, but usually when we do buys like this, it is 
for the Department of Defense. And I will take an example, we 
just bought a collaboration tool it was IBM Sametime. And we 
had to--that is an off-the-shelf piece of technology. We had to 
write a Request for Quotation (RFQ), compete that. That takes 
months. Then that is awarded. And then you stand by for a 
protest.
    Mr. Smith. Right.
    General Croom. And this takes a couple of months.
    Mr. Smith. Is there any way, and this is--it is a cottage 
industry, but it is a little bit more than that and this is all 
across the DOD you mentioned the protests and obviously there 
are private contractors out there and we are going this on 
every conceivable level. The one that leaps to my mind is the 
tanker issue.
    And obviously, there is some nasty little aspects of that 
that are outside the norm. But forgetting that for the moment 
and just sort of focusing on hey, you got this big thing, the 
military is going to buy it. There is several private 
contractors that want a piece of it. You have to go through the 
process and they are going to fight like cats and dogs over it. 
And it gets appealed. And I imagine the same thing happens with 
IT you can imagine various companies out there that provide a 
product. They don't win it. And they come back and call us. And 
we fight this out.
    And my bias about all this is a little opposite of what is 
going on here right now. My bias is to actually give greater 
power to folks like you and those below you to make those 
decisions.
    My second bias is to then fire them if they don't do it 
well instead of tying their hands and making it impossible for 
anybody to do it well. But we have all these contractor issues 
that are floating around out there.
    Is there any--if you could sort of cut through that and say 
here are two or three things that we can tighten up to greater 
empower your people to make these decisions without having to 
go through that process without facing those appeals what are 
some ideas you can throw out there?
    General Croom. Well, first of all, I like your approach. 
Give me the authority and fire me if I screw up.
    Okay, today, the rules are such that you almost could do 
nothing on a three-year tour and be well within all the laws 
and acquisitions.
    Mr. Smith. And be promoted.
    General Croom. But I would have to suggest I go back to my 
ABCs. I avoid all this acquisition problem, all the release of 
the RFQ, the bids, the proposal reviews, the protests, if I can 
adopt something that has already gone through that process. 
That is why I love adoption if I can find something that meets 
the 80 percent rule, adopt it and spiral it all out. The only 
thing I have to worry about is if I am adopting something, does 
that contract allow the flexibility to meet the participants I 
need to have? Does it allow the flexibility? I don't know what 
else to say about it.
    Secretary Grimes. I would like to interject something here 
too. The services are allowed to buy a lot of stuff but we look 
at everything from an enterprise. And General Croom's focus is 
primarily on those that are going to operate in a joint 
environment. And so we want to make sure what the services are 
out there buying for their own use, will end operate, will 
operate within our environment.
    He has a test capability that certifies so there is two 
aspects of it, what you ask, one, that is he talked about the 
acquisitions front end which is laborious. But the second side 
of that, we do have to bring, in order for someone to put their 
capabilities on his network, goes out to Fort Huachuca and goes 
through this test phase it is like the underwriter code or 
mark.
    So there is a lot of dynamics in that area to ensure--and I 
don't want to call them, we have standards in the sense of the 
standards you would normally harden asset standards, but there 
are standards that you have to meet to operate to the network 
and make sure it doesn't impact the network when it gets on 
there. So that is a very good program that has been around 
probably 15 years. So anybody in the joint arena that wants to 
get on our networks has to go out and get recertified.
    General Croom. So this dilemma you have is, freedom is 
wonderful but then you have to--you are trying to worry about 
what are they buying and how does it fit into your enterprise. 
And does it meet the interoperability and security issues? And 
so all of a sudden then now you are starting to put 
requirements--I mean, it builds on itself. It is a balance.
    Mr. Smith. It is, and I don't mean to imply meaning if we 
just did it the other way we wouldn't have any problems. It is 
just a matter of striking that balance. And my impression right 
now that is the balance is too far tilted to the process as 
opposed to the action.
    Secretary Grimes. I am going to--I won't make any mentions 
but the service have received a lot of money over the last 
number of years. And a lot of that money went down to units 
that normally would not get the amount of money and they go out 
and buy things at Radio Shack, whether they are emitters that 
Mrs. Drake was talking about or software. And we have very 
bright lieutenants and captains out there that will come up 
with solutions. And when they put that solution on his network, 
there is two things can happen. It can impact the networks 
operation, but second, is there a security hole that it may 
open?
    Mr. Smith. Oh, yes.
    Secretary Grimes. And this is an area that concerns us very 
much. And his other hat, his Global Net Operations (GNO) hat, 
hopefully he identifies when someone is on there unauthorized 
or is doing something they shouldn't be.
    Mr. Thornberry. Mr. Chairman, it does occur to me with this 
last conversation that essentially we are trying to do things 
in the Internet age with an industrial age bureaucracy. And you 
all probably feel it as much as anybody in IT. And I think what 
chairman and Mrs. Drake both are saying is, help us look for 
ways to improve this. It is not just legislation. It is not 
just regulation. But I see it as kind of a microcosm of how we 
are going to have to be more flexible and adaptable not only in 
what we buy but how we react to the world around us.
    So if I could ask another couple areas right quick I know 
that private industry was surprised by the rapid increase in 
what chips can do and the power requirement that came with 
that.
    In looking at the size of your responsibility across the 
Department of Defense, and using that as an example, is that 
something that caught you by surprise? And how do you deal with 
something that has that many consequences?
    General Croom. Are you talking about computing power? The 
growth of computer power? Moore's law has been known by all of 
us for a long time.
    Mr. Thornberry. I tried that but as I understand it, and I 
can't get into all of this, but, there has been universal 
surprise at the increase in power that has been required to run 
the increasingly productive chips that----
    General Croom. You are talking about utility power?
    Mr. Smith. And also keeping it so the chip doesn't overheat 
the whole system.
    General Croom. We have been out now, we do many visits to 
industry, Microsoft, Google, Sun, they actually know when you 
talk about the size of their computing rooms, they give you the 
size in terms of kilowatts consumed, not in square footage. 
They are physically moving their computing facilities to be 
right alongside producers of energy like below a dam or 
whatever, because they don't want to pay for the transport of 
that energy. So it is a significant cost to industry.
    I don't know yet if it is a cost driver for government. And 
I say this putting my own foot in my mouth, sometimes I believe 
our personnel costs are our cost driver right now and energy 
might be second. But for industry they have the personnel 
factor so low with lights out processing that now we are going 
after their highest cost driver, which is energy.
    Secretary Grimes. Of course, we have found where some of 
our super computers are operating that we are having problems 
of getting power, in fact, shutting down if you will so certain 
missions can be done 24 hours a day. And that is a real issue. 
And even where the power company has the capability to give us 
that--in the near future that is and maybe that is what you are 
referring to. That occurs to me as a surprise to----
    Mr. Thornberry. The surprise comes out, but it has enormous 
ramifications and it even exacerbates what we were talking 
about the need to be flexible and adaptable. Maybe it is just a 
big super computing type operations that affected and maybe the 
more, you know, the lesser levels are not so much.
    Can I change the subject right quick? Secretary Grimes, do 
you get into--I notice in your statement you talk about defense 
business transformation efforts. Does it come under your 
responsibility to find us a way some day that we can track 
money through the Department of Defense? Where one system talks 
to another and that it can even pass an audit?
    Secretary Grimes. Well, you mentioned business 
transformation. As you know, it was established before my 
watch, the Business Transformation Agency to address, I think 
it was mandated by the Congress, for the business systems. Two 
things, I participate on that board with the deputy secretary 
and all of the others, and, in fact, it is co-chaired by the 
Deputy Secretary and Secretary Krieg to run the business 
systems and that whole process.
    Second, I have a role, because of my title 40, Clinger-
Cohen, both the budget comes up through me and second, we, 
through the MDA, my milestone decision authority, that comes 
through me. So I do have some checks and balances.
    Mr. Thornberry. It is an excuse I have heard for 13 years 
now the reason the Department cannot pass an audit is because 
its IT systems can't work together, so that they can't, one 
system can't talk to another and so when you try to say, this 
dollar comes from the taxpayers, and it goes where? And ends up 
where? You can't answer that question.
    Secretary Grimes. That is a very good point. And that is 
one of the highlights about that centricity or data strategy of 
sharing data across the financial systems, which I think you 
are also probably referring to. And today, hopefully, I believe 
some of the things we are doing, I mentioned the maritime 
domain, how we took that in nine months and the interagency 
process, well, we are now working that internally also for 
sharing information between those business systems if you will.
    Mr. Thornberry. So when are we going to fix that?
    Secretary Grimes. You mentioned 13 years. I am hoping it is 
not another 13 years, but----
    Mr. Thornberry. I may not last that long.
    Secretary Grimes. I know I won't.
    Mr. Thornberry. Mr. Chairman, with your indulgence.
    General, once upon a time I was told that something like 90 
percent of DOD's IT is dependent upon commercial 
infrastructure. I don't know if that is exactly right or not 
but when you talk about defending the networks, the question 
that I have a hard time understanding is, who is responsible 
for defending the commercial networks, or the commercial 
infrastructure upon which our networks depend? I spent some 
time on the Homeland Security Committee, and I spent some time 
here and there and around. Who is responsible for that?
    General Croom. I can tell you who I think is responsible. I 
know it is not the Department of Defense in terms of--my 
mission is bounded solely by the DOD military network. And the 
DOD military network is made up of 120,000 leased circuits, 
commercial satellite communications, and we own some of our own 
obviously. We work with Mr. Garcia from homeland security, my 
commander as a joint task force global net ops, we share our 
operational threat with them, we share our operational status, 
we share processes, techniques, tactics and procedures. But 
right now there is, I don't believe, any capability to look 
across the entire commercial network. You didn't ask 
capability. You asked who is responsible.
    Mr. Thornberry. I am trying to start at one place, but yes.
    Secretary Grimes. Could I intercede there? I don't know if 
you are aware of the President's National Security 
Telecommunications Advisory Committee that has been around 
since the early 1980's that was brought into place by the 
divestiture of AT&T. And it looks at national security 
emergency preparedness. And today, that function was 
transferred, actually out from under General Croom to 
Department of Homeland Security (DHS), it is under Garcia. But 
the purpose of that was to do exactly what you are talking 
about, and the awareness with those companies, and, in fact 
today, I just drove back from Cambridge, Maryland where we had 
the industry down there, part of the President's Advisory 
Committee, on how we improve their infrastructure that supports 
us.
    Everything from power, emergency power, to how you recover 
a 9/11, which they did a very good job by the way, and we have 
set up this national coordinating center for telecommunications 
with industry and government in it, which actually supports his 
GNO mission also, and so some of that is in place, and has been 
around for quite a while.
    It was put in place for the nuclear, the Cold War. Now he 
has evolved to support the new generation or what we call the 
next generation networks convergence network. But they are the 
source. And in his building right today you have government and 
commercial carriers, the Verizons, AT&Ts setting in that 
facility, along with others, with other government agencies, 
that is looking at that network they are dependent upon.
    That part is going to be moved, I believe, out of his 
building over to DHS center very soon which is a concern to 
some people but that process is--and the President meets with 
those individuals once a year, next month he meets with them, 
and when I was on the national security staff, that was one of 
the things in my portfolio that was quite effective. And they 
put in place if you will, capabilities into that network on 
priorities, what is going to be restored, how you get fuel to 
those critical nodes, owned by the telephone company, that 
process preplanning has been put in place for a long time.
    Some of it also goes back to how you continue to operate in 
a distressed or disturbed environment, interrupted, disrupted 
environment, so----
    Mr. Thornberry. I think it is going to take more than a 
coordinating committee, and I have some concerns that the 
authority is not where the capabilities are. But rather than 
pursue--Mr. Chairman, I have a few other questions kind of in 
this area that I would like to submit for the record. But I 
think it is something that probably a lot of us need to 
continue to investigate. And I yield back.
    Mr. Smith. That is a very helpful line of questioning. I 
appreciate that. I just have one final quick question off that. 
In terms of personnel in terms of getting the people who have 
the technological talent to do the job you need at the DOD, are 
you able to recruit the people you need? Is there more you need 
to do?
    General Croom. Yes, sir. I am able to recruit the people 
but we have a very aggressive recruitment process. Of my 6,600 
government employees, I think we have an intern program that 
starts spotting these folks--technical folks, engineers, 
computer scientists, while they are still in school and we 
bring them into DISA and part-time work and we bring them in as 
a 3-year intern. And we probably of 250 to 300 those folks--120 
a year--and it is a 3-year program. So we aggressively go out 
and recruit and they have some obligation to stay with us.
    I will say Mr. Grimes was mentioned in my area to mention 
one thing we have we will have a problem here shortly as we 
have been Base Realignment and Closure (BRAC)'ed. We will move 
out of Washington to Fort Meade to be with our buds at NSA. 
That move out of Virginia into Maryland I will lose a 
significant portion of my technical workforce just because they 
have been in place for a long time and they can get jobs 
anywhere. And they will not tend to move. And so this will be a 
significant issue as we work that. Thank you.
    Mr. Smith. I have nothing further. Mr. Conaway, do you have 
any further?
    Mr. Conaway. One. This may be too simplistic to embarrass 
myself. As we buy thousands of laptops and computers every year 
each one, in my view, is potential vulnerability to user access 
points to the overall network, both from a Trojan horse if the 
machine itself has something in it that shouldn't be there, it 
is configured the right way, are there--and obviously, this is 
something you know about this, or do you have the right 
infrastructure in place to watch for those things? Because 
everybody is buying separately, are there seams in the overall 
protection that can be exploited? How do we make sure that we 
keep them all updated and the right encryption gear on them and 
all that kind of stuff?
    General Croom. Again, I don't buy desktop computers for the 
Department of Defense, so I will answer just what we are doing 
at DISA. And obviously, we don't want to be the next Veterans 
Affairs (VA) where a laptop is stolen and information then 
becomes available.
    So we have got to encrypt the data that is on the laptop if 
it is taken away from the facility. But more importantly, 
again, you can't get into the laptop unless you have your 
personal identification card and have it inserted into the 
machine and provide the proper Personal Identification Number 
(PIN). So that helps secure the information that is on the 
laptop. Plus we are working methods to secure the data what we 
call data at rest, data that sits inside your laptop.
    In order to connect back into the network to do your work 
or retrieve information, again, you can't do that without your 
physical token plus a PIN number. So we are trying to address 
just your very good concern.
    Mr. Conaway. Would there be a Lieutenant General Croom 
equivalent at each one of the services to make sure that they 
are doing the same thing?
    General Croom. Absolutely. Absolutely. And in fact, I will 
repeat under the Joint Task Force Global Net Ops I have an 
organizational structure to get back to your question. I have 
authority. Now my authority, first of all, is delegated to me 
by Strategic Command (STRATCOM). But I have authority to direct 
actions across the network. If we want to shut ports and 
protocols, if we want to redirect any actions, if we want to 
secure something, I have the command authority to do that and I 
can order the Army, Navy, Air Force, 31 agencies, 9 Combatant 
Commands (COCOMs) to do it.
    I can order patches on the network. I have the authority 
and we are exercising authority. We ordered the implementation 
of this cat card, and of course, with authority comes, you have 
to track it or else you have a weak policy. But we track it and 
we enforce it.
    So the services have that structure below them and they 
have a three-star in charge of their networks that report to 
me. So they have a very good structure as well. So it is--we 
are the military.
    Secretary Grimes. Of interest to you also about sharing 
information Mrs. Drake, we meet, the Chief Information Officers 
(CIOs) or the C-4 or whatever you want to call us on meet on 
a--every month, and compare notes and we let our hair down and 
do these things he was talking about sharing it. The Army has 
something that they can adopt to or the Air Force, and it is a 
lot of synergism taking place in our community because of that 
and they are all highly technically inclined, I am here to tell 
you a lot of good things are taking place you don't see on the 
surface.
    Mr. Conaway. That is terrific. But are there circumstances 
where you collectively come to the place you want to implement 
and you can't, do you have an appropriate way to push that 
further up so that you do, in fact, get what you want?
    Secretary Grimes. I am the guy I guess where the buck stops 
in this area. And then, the Deputy Secretary who I work for, 
and the Secretary who I work for, I usually, and he happens to 
be in tune with our technology. We haven't lost any yet to 
where we have had any issues.
    The biggest thing we have right now is the IA, the 
information assurance area, and how that is done. And of 
course, NSA provides most of that. We work very closely, he is 
the organization that implements it. But that is where it is 
going to get costly, protecting information and protecting the 
network.
    Mr. Conaway. Thank you, Mr. Chairman.
    Secretary Grimes. It is a big bill.
    Mr. Smith. Well, thank you, that is all I have. I do 
believe you gentlemen are doing a very good job. Obviously, 
there has been a rapid pace of change, but I think the 
Pentagon, in the last four or five years, in particular, has 
stepped up and tried to figure out how to make the best of that 
change, meet the challenges and take advantage of 
opportunities, obviously more work to be done. But I am very 
impressed with the testimony and looking forward to working 
with you to keep that process moving forward. Thank you for 
coming today, we are adjourned.
    [Whereupon, at 3:30 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                             March 28, 2007

=======================================================================


=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 28, 2007

=======================================================================



    [GRAPHIC] [TIFF OMITTED] 43956.001
    
    [GRAPHIC] [TIFF OMITTED] 43956.002
    
    [GRAPHIC] [TIFF OMITTED] 43956.003
    
    [GRAPHIC] [TIFF OMITTED] 43956.004
    
    [GRAPHIC] [TIFF OMITTED] 43956.005
    
    [GRAPHIC] [TIFF OMITTED] 43956.006
    
    [GRAPHIC] [TIFF OMITTED] 43956.007
    
    [GRAPHIC] [TIFF OMITTED] 43956.008
    
    [GRAPHIC] [TIFF OMITTED] 43956.009
    
    [GRAPHIC] [TIFF OMITTED] 43956.010
    
    [GRAPHIC] [TIFF OMITTED] 43956.011
    
    [GRAPHIC] [TIFF OMITTED] 43956.012
    
    [GRAPHIC] [TIFF OMITTED] 43956.013
    
    [GRAPHIC] [TIFF OMITTED] 43956.014
    
    [GRAPHIC] [TIFF OMITTED] 43956.015
    
    [GRAPHIC] [TIFF OMITTED] 43956.016
    
    [GRAPHIC] [TIFF OMITTED] 43956.017
    
    [GRAPHIC] [TIFF OMITTED] 43956.018
    
    [GRAPHIC] [TIFF OMITTED] 43956.019
    
    [GRAPHIC] [TIFF OMITTED] 43956.020
    
    [GRAPHIC] [TIFF OMITTED] 43956.021
    
    [GRAPHIC] [TIFF OMITTED] 43956.022
    
    [GRAPHIC] [TIFF OMITTED] 43956.023
    
    [GRAPHIC] [TIFF OMITTED] 43956.024
    
    [GRAPHIC] [TIFF OMITTED] 43956.025
    
    [GRAPHIC] [TIFF OMITTED] 43956.026
    
    [GRAPHIC] [TIFF OMITTED] 43956.027
    
    [GRAPHIC] [TIFF OMITTED] 43956.028
    
    [GRAPHIC] [TIFF OMITTED] 43956.029
    
    [GRAPHIC] [TIFF OMITTED] 43956.030
    
    [GRAPHIC] [TIFF OMITTED] 43956.031
    
    [GRAPHIC] [TIFF OMITTED] 43956.032
    
    [GRAPHIC] [TIFF OMITTED] 43956.033
    
    [GRAPHIC] [TIFF OMITTED] 43956.034
    
    [GRAPHIC] [TIFF OMITTED] 43956.035
    
    [GRAPHIC] [TIFF OMITTED] 43956.036



      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 28, 2007

=======================================================================



    [GRAPHIC] [TIFF OMITTED] 43956.037
    
    [GRAPHIC] [TIFF OMITTED] 43956.038
    
    [GRAPHIC] [TIFF OMITTED] 43956.039
    
    [GRAPHIC] [TIFF OMITTED] 43956.040
    
    [GRAPHIC] [TIFF OMITTED] 43956.041
    
    [GRAPHIC] [TIFF OMITTED] 43956.042
    
    [GRAPHIC] [TIFF OMITTED] 43956.043
    
    [GRAPHIC] [TIFF OMITTED] 43956.044
    
    [GRAPHIC] [TIFF OMITTED] 43956.045
    
    [GRAPHIC] [TIFF OMITTED] 43956.046
    
    [GRAPHIC] [TIFF OMITTED] 43956.047
    
    [GRAPHIC] [TIFF OMITTED] 43956.048
    
    [GRAPHIC] [TIFF OMITTED] 43956.049
    
    [GRAPHIC] [TIFF OMITTED] 43956.050
    
    [GRAPHIC] [TIFF OMITTED] 43956.051
    
    [GRAPHIC] [TIFF OMITTED] 43956.052
    
    [GRAPHIC] [TIFF OMITTED] 43956.053
    
    [GRAPHIC] [TIFF OMITTED] 43956.054
    
    [GRAPHIC] [TIFF OMITTED] 43956.055
    
    [GRAPHIC] [TIFF OMITTED] 43956.056
    
    [GRAPHIC] [TIFF OMITTED] 43956.057
    
    [GRAPHIC] [TIFF OMITTED] 43956.058
    
    [GRAPHIC] [TIFF OMITTED] 43956.059
    



=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 28, 2007

=======================================================================


                    QUESTIONS SUBMITTED BY MR. SMITH

    Mr. Smith. What role do you play in transitioning IT efforts 
developed within the S&T community into the GIG?
    Secretary Grimes. The Assistant Secretary of Defense for Networks 
and Information Integration (ASD(NII)) monitors and supports a wide 
variety of Science and Technology (S&T) information technology efforts. 
Specific examples of NII/S&T community technology transition 
partnerships include: the Defense Advanced Research Projects Agency 
programs on advanced networking protocols; the Defense Venture Catalyst 
Initiative (DeVenCI); the Joint Concept Technology Development (JCTD) 
Programs; and the networking/information assurance research and 
development programs with the Director, Defense Research and 
Engineering. S&T efforts are transitioned into the Global Information 
Grid (GIG) by developing enabling integrated capabilities for the Joint 
Net-Centric Operations (JNO) Portfolio and GIG Systems Engineering 
Architecture.
    Mr. Smith. What is DOD doing in the realm of Information Assurance 
and how is this being managed as part of DOD's move towards net-centric 
operations?
    Secretary Grimes. To meet the rapidly changing needs of the 
warfighter and enable decision makers, our Information Assurance (IA) 
posture and net defenses are becoming stronger to provide a sufficient 
defense-in-depth in response to sophisticated nation-state adversaries 
which are well resourced, persistent and attack with precision. Our 
warfighters must have confidence in the networks that support them and 
be assured that the information they need is available when they need 
it, accurate, and has not been stolen or manipulated by our 
adversaries.
    The DOD Chief Information Officer (CIO) IA transformational 
priorities focus on four key areas:

        (1)  Ensuring the Department's Global Information Grid is 
        resilient and enables DOD Mission Assurance despite 
        sophisticated attack;

        (2)  Restructuring the network design and operations to confine 
        attacks to boundaries, improve reaction time to incidents and 
        deny adversaries the opportunity to exploit weaknesses;

        (3)  Partnering with the Defense Industrial Base to 
        collaboratively work towards safer and more secure ways of 
        doing business; and

        (4)  Managing risk to our supply chain due to effects of 
        globalization.

    The DOD IA strategic plan and portfolio management processes 
approach security comprehensively and addresses people, processes, and 
technologies to ensure compliance with compliant with regulatory and 
statutory guidelines, policies and laws.
    The Department's IA program proactively addresses the security 
challenges of the rapidly evolving threat by eliminating 
vulnerabilities through rigorous configuration and access control. For 
example, the Department has over 3.5 million personnel with common 
access card credentials to ensure robust identity management and access 
control to the networks. In addition, the CIO has instituted a 
comprehensive campaign to educate and train the DOD workforce on 
network vulnerabilities and it is in the process of certifying up to 
90,000 personnel in Information Technology and Security skill fields.
    Mr. Smith. How does NII, in the oversight role, develop, 
coordinate, and implement cyber security and information assurance (IA) 
requirements development and implementation efforts across the DOD and 
Service IT portfolios?
    Secretary Grimes. DOD Instruction 8115.02, ``Information Technology 
Portfolio Management (ITPM)'', provides the mechanism that the 
Assistant Secretary of Defense for Networks and Information Integration 
(ASD(NII))/DOD Chief Information Officer (CIO) uses for making 
decisions and recommendations based on enterprise strategic planning, 
integrated architectures, and outcome-based performance measures to 
achieve the Global Information Grid (GIG) Information Assurance (IA) 
vision across the Department. The process:

        <bullet>  Ensures fully leveraged baseline of resources from 
        research to decommission;

        <bullet>  Synchronizes project milestones and dependencies;

        <bullet>  Measures performance to drive and manage investment 
        decisions;

        <bullet>  Recommends the best mix of investment; and

        <bullet>  Monitors the execution, ensure the results and take 
        appropriate corrective actions on IA programs

    Portfolio Management is integrated into DOD and Service Portfolios 
through the Joint Capabilities Integration Development System (JCIDS). 
JCIDS, is the formal DOD procedure defining acquisition requirements 
and evaluation criteria for future defense programs.
    The IA Portfolio Management activities have been organized into six 
capability areas:

        (1)  Assured Information Sharing;

        (2)  Integrity/Non-Repudiation;

        (3)  Assured Mission Management;

        (4)  Defend the GIG;

        (5)  Highly Available Enterprise; and

        (6)  Confidentiality as defined in the approved JCIDS Joint 
        Capabilities Document (JCD) and the GIG IA Initial Capabilities 
        Document (ICD).

    A DOD-wide IA Working Group (composed of representatives from each 
of the Combatant Commands Services and Agencies) is established to 
participate in lifecycle cost estimation, prioritization, and 
validation of all IA initiatives. In addition to addressing operational 
needs by selecting the best mix of investments, the Portfolio 
Management process reduces programmatic risk through a continued 
control and evaluation process. This provides insight into programs' 
and activities' cost, schedule, and performance to ensure that 
capabilities are being provided where and when they are needed. 
Portfolio Management also provides the ability to execute programmatic 
risk mitigations to adjust the portfolio and ensure that capabilities 
are delivered as planned.
    Mr. Smith. In the Milestone Decision process, what are the criteria 
for determining whether NII or Acquisition, Technology and Logistics 
(AT&L) holds Milestone Decision Authority (MDA) over programs? What 
programs have been claimed by both NII and AT&L for final MDA approval? 
How was the decision made to give MDA to one or the other organization?
    Secretary Grimes. The Under Secretary of Defense for Acquisition 
Technology and Logistics (USD(AT&L)) is the Defense Acquisition 
Executive and determines the Milestone Decision Authority (MDA) for DOD 
acquisition programs. Historically, the USD(AT&L) has delegated MDA for 
major automated information system (MAIS) acquisition programs to the 
Assistant Secretary of Defense for Networks and Information Integration 
(ASD(NII)). The USD(AT&L) retains MDA for major defense acquisition 
programs (MDAPs), except for those he elects to delegate to the Service 
Acquisition Executives. The primary reason for permitting the ASD(NII) 
to serve as MDA for MAIS has been that the expertise for MAIS programs 
is in the OASD(NII). In rare cases, when an MDAP is not a weapon 
system, and is primarily information technology (IT) oriented, the 
USD(AT&L) has delegated MDA to the ASD(NII).
    The USD(AT&L) recently established an organization within 
OUSD(AT&L) with expertise in acquiring business systems. As a result, 
the USD(AT&L) has become the MDA for those business systems that are 
MAIS programs.
    A few MAIS programs exceed the dollar threshold for an MDAP. When 
this happens, the program is classified as both a MAIS and an MDAP, 
often called a MAIS/MDAP. The USD(AT&L) determines who will serve as 
the MDA for a MAIS/MDAP.
    No programs have been claimed by both USD(AT&L) and ASD(NII) for 
final MDA approval. All programs have only one MDA. However, when the 
USD(AT&L) is the MDA, the ASD(NII)/DOD Chief Information Officer has a 
key advisory role by serving as a member of the Defense Acquisition 
Board. When the ASD(NII) is the MDA, key members of the USD(AT&L)'s 
staff serve as members of the IT Acquisition Board.
    Mr. Smith. Can you explain to the subcommittee how you exercise 
your responsibilities under the Capability Portfolio Management (CPM) 
process for Joint Net-Centric Operations (JNO)? Do you believe that 
provides you will appropriate level of authority to manage these kinds 
of joint IT programs?
    Secretary Grimes. The responsibilities under the Capability 
Portfolio Management (CPM) process are met using three types of 
authorities provided to the Assistant Secretary of Defense for Networks 
and Information Integration/Department of Defense Chief Information 
Officer (ASD(NII)/DOD CIO). The first type of authority is provided as 
the Principal Staff Assistant (PSA) to the Secretary of Defense for 
command and control (C2), communications, spectrum, information 
assurance, enterprise wide systems engineering, and related activities 
as enumerated in the NII charter. This set of authorities involves 
program oversight, establishing policies, and ensuring the requirements 
for the warfighter are being appropriately addressed in each of the PSA 
areas. The ASD(NII) PSA authorities clearly support the Joint Net-
Centric Operations (JNO) CPM process and objectives.
    The second type of authority vested with the ASD(NII)/DOD CIO is 
specified as the Department's CIO, specifically to ensure the IT 
investments are appropriate, as well as ensuring the systems are 
interoperable and the right level of information assurance is achieved. 
The DOD CIO authorities also directly support the JNO CPM portfolio 
since the JNO portfolio consists of enabling infrastructure components 
such as communication networks (transport), enterprise services, 
computing capabilities, information assurance, and network management 
components.
    The third type of ASD(NII)/DOD CIO authority is specifically 
granted as the Capability Portfolio Manager of the JNO portfolio. The 
CPM process recommends and advises the owners of the three major 
department processes (capabilities, acquisition, and resources) 
relative to the specific portfolio functions. The CPM assesses and 
recommends actions regarding the execution and content of JNO (IT) 
programs to the Under Secretary of Defense for Acquisition, Technology 
and Logistics. The JNO CPM also addresses the capabilities issues with 
the Joint Staff J8 and Joint Requirements Oversight Council (JROC). 
Finally, the JNO CPM ensures the proper balance is maintained within 
the portfolio regarding the funding allocations and program investments 
using the 3-Star Programmers Resource Board and advising the Director 
of Program Analysis and Evaluation.
    Mr. Smith. Do you believe that provides you will [sic] appropriate 
level of authority to manage these kinds of joint IT programs?
    Secretary Grimes. Yes. The combined authorities of the ASD(NII)/DOD 
CIO as a PSA, the DOD CIO, and CPM offers the ability to influence, as 
well as execute, the objectives established for the JNO portfolio. In 
addition, the ASD(NII)/DOD CIO is lead chair for the Command and 
Control Capability Integration Board (C2CIB), which oversees all JNO 
and Joint C2 (JC2) portfolio activities. This board also acts as the 
fusion body for ensuring the JC2, JNO and Battlespace Awareness 
portfolios are appropriately addressing the joint needs. Also, the 
ASD(NII)/DOD CIO is a permanent member of the Deputy Advisory Working 
Group (DAWG), which oversees and directs all portfolio activities. 
Adequate authorities exist to achieve the management objectives for 
both Service specific and joint based IT programs.
    Mr. Smith. How do you suggest we move away from the traditional 
mindset of ``need-to-know'' and institutionalize systems based on 
``need-to-share''?
    Secretary Grimes. Changing the culture is a significant challenge 
and will take time. It requires increased awareness that all mission 
partners need each other to achieve optimal mission success (the 
warfighter on the battlefield understands this need). This culture 
shift must embrace improved sharing and collaboration capabilities as 
necessary to achieving operational goals. For DOD, these are closely 
related to the Secretary's Transformation Priorities, which include 
Building Partnership Capacity, Implementing the Cyberspace Strategy, 
and Homeland Defense/Civil Support Capabilities.
    Implementing the ``need to share'' paradigm can be accommodated 
with information systems standards and capabilities developed 
concurrently and/or in conjunction with other Federal Agencies. Using 
venues such as the Federal Chief Information Officer Council or the 
Information Sharing Council to ensure that there is a common 
understanding of the importance of this new paradigm helps establish 
the mindset change needed at senior and staff levels across the 
government.
    Mr. Smith. How are DOD IT data and architectural standards 
coordinated with international and interagency partners (such as the 
Departments of State, Justice, Homeland Security and Treasury and the 
Intelligence Community)?
    Secretary Grimes. The Defense Information Systems Agency (DISA) is 
the Department of Defense (DOD) Executive Agent (EA) for Information 
Technology (IT) Standards, responsible for developing, publishing, and 
maintaining established and developmental interoperability standards. 
As the Department's EA, DISA identifies and assesses relevant emerging 
technologies and related standards; manages DOD participation in 
external IT standards developing organizations and standards setting 
organizations; facilitates feedback and dissemination of IT standards 
information among DOD stakeholders; and develops, acquires, adopts, 
specifies, maintains, and manages the life cycle of IT standards for 
DOD. DISA works closely with interagency partners to ensure that DOD's 
requirements are met with accredited standards that are available from 
or under development by authoritative non-government sources.
    To accomplish this, DISA represents the DOD and participates in 
relevant external standards developing organization and standards 
setting organization activities to ensure timely consideration of DOD 
requirements. For example, DISA recently worked with the National 
Institute of Standards and Technology (NIST) as well as the Department 
of Homeland Security (DHS) to arrive at federal consensus on the 
determination and suitability of an open document standard for 
International adoption. In addition, DISA is substantially involved 
with the government-wide Information Sharing Council to develop a pilot 
capability with the Department of Justice whereby DOD will be able to 
share DOD standards and metadata that pertain to Counter Terrorism 
Information Sharing and suspicious activity reporting with state, 
county, and tribal law enforcement entities.
    With respect to international standards coordination, DOD must 
consider both its interests within NATO, as well as those of our 
Coalition partners and other non-NATO nations, on a bilateral basis. In 
many of these relationships, DOD expresses its position through its 
national representatives to the international standardization bodies 
such as the International Standardization Organization (ISO) and the 
Internet Engineering Task Force (IETF). In the NATO community, DOD 
participates in the NATO Command, Control, and Communications (C3) 
Board and various other NATO working committees principally involved in 
networked centric operations and tactical communications. In these 
environments, the Department is actively engaged in the management of 
U.S. military requirements in the form of NATO Standardization 
Agreements or STANAGs. Our non-NATO partners are usually interested in 
aligning to our Military and Commercial standards implementations to 
support their procurements of U.S. Military equipment via Foreign 
Military Sales. As an example, the coordination process within the NATO 
Joint Messaging Systems Working Group involves the development, 
evaluation and approval of change proposals that impact the platform 
implementation of tactical messaging STANAGs.
    Additional information on DOD's IT standardization efforts can be 
found in the January/March 2007 issue of The Defense Standardization 
Program Journal, ``DOD IT Standardization'' at www.dsp.dla.mil/APP_UIL/
content/newsletters/journal/DSPJ-01-07.pdf.
    Mr. Smith. What are you doing to manage and deconflict radio 
frequency spectrum issues at the tactical level (for example, to 
ameliorate the problem of IED jammers interfering with communications 
systems)? How do efforts like the Global Electromagnetic Spectrum 
Information System (GEMSIS); Defense Spectrum Management Architecture 
(DSMA) and the Defense Spectrum Office support operations at the 
tactical level?
    Secretary Grimes. The Department of Defense (DOD) has numerous 
efforts underway to manage and deconflict radio frequency spectrum at 
the tactical level. In the near term, DOD is actively addressing the 
problem of improvised explosive device (IED) jammers interfering with 
communications systems in theater by taking steps to minimize 
electromagnetic interference between our own forces. The near term 
investment calls for commercial-off-the-shelf (COTS) equipment combined 
with tactics, training and procedures (TTPs) to mitigate 
electromagnetic interference. This will be followed by programmatic 
solutions in the mid- and long-term to automate and sustain our new 
battlespace management capabilities.
    The near-term efforts, which address a U.S. Central Command 
(CENTCOM) Joint Urgent Operational Needs Statement (JUONS), December 
2005, include:

        <bullet>  Enhance electronic warfare analysis capability within 
        the existing spectrum management tool (SPECTRUM XXI) and field 
        it to the tactical level;

        <bullet>  Establish an Operational Spectrum Analysis Cell at 
        the Defense Spectrum Organization (DSO) to provide 24-hour 
        operational support to current operations in Iraq;

        <bullet>  Field portable spectrum analyzers in theater with 
        supporting laptops; and

        <bullet>  Develop TTPs to address the electromagnetic spectrum 
        interference.

    In parallel, the Navy volunteered to provide over 200 Electronic 
Warfare Officers to assist with Counter RCIED (Remote Control 
Improvised Explosive Device) Electronic Warfare (CREW) jammer 
deconfliction. The Navy's addition has proved very valuable as the Army 
develops its own Electronic Warfare Officer career field.
    In the mid-term, the DOD is developing the Coalition Joint Spectrum 
Management Planning Tool (CJSMPT) as a Joint Capabilities Technology 
Demonstration (JCTD), to mitigate CREW system and communications 
interference. The unique tool enables the warfighter to plan out, with 
modeling and simulation, the electromagnetic spectrum operating 
environment. Phase II will provide broader Joint Task Force level 
planning for spectrum access and deconfliction based on unit level 
spectrum requirements.
    The CJSMPT will be mapped to the Global Electromagnetic Spectrum 
Information System (GEMSIS), as Increment I, using the Defense Spectrum 
Management Architecture (DSMA) to ensure the technology demonstration 
is sustained and kept current with the warfighter's needs. In the long 
term, GEMSIS will support evolving military operations and the Global 
War on Terrorism (GWOT) by transforming spectrum operations from a 
preplanned and static frequency assignment system into a responsive and 
agile capability to manage the complex electromagnetic spectrum 
battlespace. GEMSIS will provide a suite of tools that will enable 
planning at the strategic, operational and tactical levels. Battlespace 
management with GEMSIS will decrease operational risk significantly by 
reducing or eliminating electromagnetic spectrum interference, while 
enabling DOD to maximize our military investment through more informed 
procurement.
    GEMSIS, as envisioned, will be built in line with the DSMA and 
leverage all existing spectrum management capabilities in its design. 
The DSMA provides the roadmap and transition strategy to evolve to 
DOD's spectrum management vision. Furthermore, it is used to ensure our 
efforts are synchronized.
    GEMSIS will leverage work being conducted by the DSO, particularly 
the spectrum management data and tools transformation plans. These 
plans, worked in coordination with the entire spectrum community, will 
move us successfully into the future.
    At the tactical level, as mentioned above, the DSO maintains the 
Operational Spectrum Analysis Cell at its Annapolis, MD facility, which 
provides technical support, deployable training teams and operational 
surge augmentation as needed to provide radio frequency support to 
ongoing military operations.
    Mr. Smith. Could you please update us on the status of the DOD 
Information Sharing Strategy, including when it might be completed and 
how it will impact DOD information policy?
    Secretary Grimes. The Assistant Secretary of Defense for Network 
and Information Integration/DOD Chief Information Officer (ASD(NII)/DOD 
CIO) anticipates signing the DOD Information Sharing Strategy in early 
May 2007. This Strategy will establish a new information sharing vision 
for the Department of Defense: ``Delivering the power of information to 
ensure mission success through an agile enterprise with freedom of 
maneuverability across the information environment.''
    The DOD CIO is working closely with the President's Information 
Sharing Environment Program Manager and the Associate Director of 
National Intelligence and Chief Information Officer to ensure that DOD 
goals address the broader National Strategy for Information Sharing.
    To make immediate progress in achieving the goals of the DOD 
Information Strategy, a companion Implementation Plan is being 
developed. This Plan will outline near-term tasks and offices of 
primary responsibility that impact the full spectrum of information 
sharing concerns. Chief among these concerns is ensuring that effective 
policies are in place to enable information sharing. Accordingly, task 
considerations in the Plan include the development of overarching 
information sharing Directive as well as making improvements in 
existing policies dealing with classification and release processes. 
The Implementation Plan is scheduled to be signed in the second quarter 
of FY08.
    Mr. Smith. What is DOD's role in the Information Sharing 
Environment (ISE) program called for in the Intelligence Reform and 
Terrorism Prevention Act? What is the status of ISE?
    Secretary Grimes. DOD is actively involved in Information Sharing 
Environment (ISE) activities through the Information Sharing Council 
and working groups reporting to the ISC.
    DOD provides leadership via the ISC in order to centrally describe 
the ISE missions and processes while relying on an implementation 
approach based on a distributed, federated model. An example is the 
implementation of the Controlled Unclassified Information (CUI) 
framework. The CUI framework implements a new marking, safeguarding, 
and dissemination scheme. With the PM ISE lead in identifying and 
defining ISE-level CUI implementation activities, e.g., establishing 
governance rules for dissemination until the CUI executive agent is 
identified, DOD is developing plans to identify needed DOD CUI policy 
and scope--one that extends to all forms of DOD information while 
addressing information sharing with external partners. Similarly, DOD 
is establishing procedures to review existing DOD Sensitive But 
Unclassified information to determine priorities, mechanisms, and time 
frames for re-marking information that is reused in the CUI 
environment.
    Mr. Smith. What is the status of ISE?
    Secretary Grimes. The ISE Implementation Plan was completed in 
November 2006 and describes six goals to be achieved over the next 
three years:

        <bullet>  Facilitate the establishment of a trusted partnership 
        among all levels of government, the private sector, and foreign 
        partners.

        <bullet>  Promote an information sharing culture among ISE 
        partners by facilitating the improved sharing of timely, 
        validated, protected, and actionable terrorism information 
        supported by extensive education, training, and awareness 
        programs for ISE participants.

        <bullet>  To the maximum extent possible, function in a 
        decentralized, distributed, and coordinated manner.

        <bullet>  Develop and deploy incrementally, leveraging existing 
        information sharing capabilities while also creating new core 
        functions and services.

        <bullet>  Enable the Federal government to speak with one voice 
        on terrorism-related matters, and to promote more rapid and 
        effective interchange and coordination among Federal 
        departments and agencies and state, local, and tribal 
        governments, the private sector, and foreign partners, thus 
        ensuring effective multi-directional sharing of information.

        <bullet>  Ensure sharing procedures and policies protect 
        information privacy and civil liberties.

    The PM ISE first report to Congress will be issued in September 
2007 and will describe the activities accomplished since the inception 
of this office.
    The PM ISE anticipates releasing the National Strategy for 
Information Sharing in October 2007. The Strategy will provide a 
framework for enhanced information sharing among Federal, State, local, 
and tribal officials, the private sector, and foreign partners to aid 
their individual missions and to help secure the homeland. It will also 
describe the Federal Government's approach to support State and major 
urban area fusion centers. The Strategy will also continue to ensure 
that privacy and civil liberties of Americans are safeguarded.
    Mr. Smith. What steps has DISA taken to evaluate the 
vulnerabilities and threats that potentially affect the DOD's 
communications infrastructure? What plans and programs do you have that 
are addressing these vulnerabilities? How will DISA be flexible in the 
future to address vulnerabilities and threats to our networks in the 
future?
    General Croom. DISA, its partner the Joint Task Force for Global 
Network Operations (JTF GNO), and the Department of Defense have a wide 
variety processes and programs to ensure that DISA, the JTF GNO, and 
other DOD components are aware of, and respond to the vulnerabilities 
and threats that potentially affect the DOD's communication 
infrastructure.
    DOD tracks and learns of vulnerabilities in the information 
technologies used by the department in a variety of ways. The first is 
that the JTF GNO monitors commercial vulnerability research and 
alerting services. These keep us up-to-date with what is known by 
researchers and by industry about vulnerabilities in specific products 
and technologies. A second method is to do careful analysis of attacks 
against federal government computers to determine whether the attacks 
exploit a vulnerability not known via other vulnerability research 
processes.
    A third approach is done as a core part of the DOD's certification 
and accreditation process, which is the process for ensuring that 
security is properly considered in the design, deployment, and 
operation of systems. During the certification and accreditation of a 
particular product or system, the DOD performs a security analysis, 
which may uncover vulnerabilities. The depth of the analysis varies 
depending on the criticality of the system and on whether other factors 
of the system's environment might reduce certain types of risks. This 
sort of analysis is repeated regularly during a system's lifetime, with 
the repetition rate depending on the criticality of the system and on 
whether other vulnerability processes provide new information that 
indicates a review is warranted.
    The DOD also regularly tests the cyber security of its operational 
systems and of the processes associated with the security of these 
systems. An example is the DISA enhanced compliance validation visit 
process. DISA has teams that are under the operational control of the 
JTF GNO that visit selected government sites that are connected to the 
core DOD networks (the unclassified network, called the NIPRNET, and 
the Secret network, called the SIPRNET). These teams examine the 
policies and procedures at the site, and perform tests and checks to 
determine the site's compliance with the department's cyber security 
standards. Another example is the information assurance evaluation that 
the Joint Interoperability Test Command performs during certain 
military exercises.
    The JTF GNO has an active intelligence analysis organization that 
teams with partners throughout the intelligence community to analyze 
the threat to DOD networks. The information derived this way is 
combined with information about attacks and incidents in the federal 
government and elsewhere, with information about the vulnerability of 
particular technologies, and with information about the design of DOD 
systems to develop operational, programmatic, and budget plans and 
priorities.
    Certification and accreditation. As a first step, DISA and the JTF 
GNO work to ensure the core process of certification and accreditation 
is working properly and is applied to every system on which DOD 
depends. DISA and the JTF GNO are also participating in an effort among 
the DNI, the DOD, the National Institute of Standards and Technology 
(NIST), and others to improve the certification and accreditation 
process throughout the federal government. DISA and the JTF GNO also 
participate in the DOD-wide community risk management processes that 
consider the mission risk and the mission benefit of deploying certain 
systems or technologies that are used broadly in the DOD or that have 
risk implications across a large subset of the Department. This latter 
process starts with the Defense Information Systems Network (the DISN) 
Security Accreditation Working Group (the DSAWG) that DISA chairs. The 
group has participants from throughout the Department and from the 
intelligence community. The DSAWG makes recommendations to a higher 
level group called the DISN flag panel, which ultimately makes 
decisions about whether to deploy the system under consideration, and 
makes decisions about the revisit rate for security evaluation and re-
approval.
    Configuration and other security guidance. A second program for 
addressing the vulnerabilities is the effort to define the appropriate 
security controls for DOD systems, then to define the proper (the 
secure) configuration for technologies and products used in the system. 
DISA has partnered for years with NIST, with NSA, and with industry to 
produce guidance on how to properly configure operating systems and key 
applications so that vulnerability is reduced or eliminated. NIST, NSA, 
and DISA produce portions of the overall set of these guides, and we 
are all working to move more of the work to our industry partners 
(since as the product developer, a particular vendor is in the best 
position to understand how to configure the product securely). These 
guidance documents are updated regularly as new information about 
vulnerability and threat becomes available, and as the technologies 
change. DISA and the JTF GNO are also participating in the effort being 
led by NIST to develop a broad set of data standards so that the 
processes of configuring a system securely, the process of measuring 
the configuration automatically and regularly, and the process of 
understanding and responding to an attack can become more automated. 
The NIST-led effort is called the Security Content Automation Protocol 
(SCAP). DISA is moving to ensure that the DISA-developed configuration 
guides are published in SCAP-conformant form, and that other tools we 
deploy are capable of consuming and producing information in SCAP 
format.
    Vulnerability alerting and mandated configuration changes. Ensuring 
that DOD information systems and enclaves are properly configured is 
essential. In addition to the definition of the security standards 
above, the JTF GNO operates processes to monitor the various sources of 
vulnerability information and to alert DOD to new vulnerabilities, and 
to direct changes to system configurations as the new information and 
the JTF GNO's analyses indicate. This process is called the Information 
Assurance Vulnerability Alert (IAVA) process. Since the JTF GNO is the 
top operational entity in the DOD's networks, all subordinate 
organizations must acknowledge receipt of an alert, and must also 
regularly report compliance with the mandated action.
    Attack detection, diagnosis, and reaction, including communication 
tasking orders. The JTF GNO, along with the other network operations 
entities of the Department monitors the Department's networks for 
intrusion, attack, and attempted attack. They use a system of DOD-
developed, and commercial detection and analysis systems. In response 
to an attack or an incident, the JTF GNO may direct that a number of 
different actions be performed, from further analysis of the incident, 
to ``cleaning'' of the affected systems, to changing the protection 
settings of core protections of the department. In a process that is 
closely related to the IAVA process, the JTF GNO issues another type of 
order to all network operations entities in the Department. This type 
of order is called a Communications Tasking Order (CTO) and is issued 
whenever, in the judgment of the JTF GNO, a change in the way DOD 
operates and protects its systems is indicated. An example of an action 
directed by a JTF GNO CTO is a change in the protection settings at the 
boundary between DOD and the Internet. When doing this, the JTF GNO 
considers the end-to-end design of the DOD networks, and when 
necessary, changes the outer-boundary protections via a CTO issued to 
everyone who operates a connection between DOD and others. Another 
example is the mandate for all DOD entities to log into the DOD 
networks using a DOD Public Key Infrastructure (PKI) credential. The 
PKI logon CTO was issued in response to an increase in attempts, both 
unsuccessful and successful, to exploit the vulnerabilities of plain 
text passwords in DOD networks.
    Management of the DOD information assurance portfolio. DISA and the 
JTF GNO participate in a process sponsored by the Assistant Secretary 
of Defense for Networks and Information Integration called the Global 
Information Grid (GIG) Information Assurance Portfolio (GIAP) 
management process. The GIAP office is staffed primarily by the 
National Security Agency, although the deputy GIAP manager is from 
DISA. The GIAP process is focused on ensuring that the DOD information 
system security program is focused on the right mix of near-term and 
longer term protections and processes for the networks of the 
department and of the federal government. It does this by looking at 
vulnerabilities, threat, current efforts, technology changes, etc. DISA 
and the JTF GNO provide input throughout the GIAP resource 
prioritization process. These range from providing data on current 
programs, to providing inputs and participating in design studies, to 
providing inputs on current operational priorities, to helping to 
explain the program in various higher-level DOD resource allocation 
fora. The JTF GNO also produces operational requirement documents 
focused on places the JTF GNO considers program priorities.
    A large piece of the overall Global Information Grid IA portfolio 
is overseen by the Computer Networks Defense Enterprise Solutions 
Steering Group (the CND ESSG). This group is made up of representatives 
from the military services, U.S. Strategic Command, the JTF GNO, NSA, 
and DISA. The group meets roughly quarterly for several days and 
reviews data on current programs, changes in the threat, changes in 
DOD's vulnerability posture, changes in technology, and then determines 
what (if any) changes should be made to the portion of the GIAP that it 
oversees. The JTF GNO serves as the requirements lead for the CND ESSG. 
DISA acts as the program manager for the ESSG and is responsible for 
acquiring, helping to pilot, and then supporting the deployment of 
computer network defense tools and technologies used DOD-wide. A few 
examples of these tools include a configuration scanner/vulnerability 
scanner, antivirus scanners, and an automated configuration change 
tool.
    Within the portion of the information assurance portfolio that is 
DISA's responsibility, DISA regularly examines efforts that are either 
underway or planned in order to ensure they are still focused on the 
appropriate priorities and are still countering the threat against the 
vulnerabilities in DOD networks as we understand them at that moment.
    Ports and protocols process. In addition to chairing the DSAWG, and 
operating the network compliance validation teams, DISA operates 
another core risk management process for the department. The ports and 
protocols process is focused on ensuring that the different layers of 
network perimeter defense in the Department properly balance 
interoperability of joint applications, with security.
    DISA information assurance program. DISA has a wide variety of 
efforts focused on protecting the networks of the Department, and 
focused on detecting, diagnosing, and reacting to attacks when the 
protections are insufficient. These efforts are focused on several 
broad areas of information assurance. One is hardening the end computer 
(whether a server or workstation) by defining the secure configuration, 
then helping to automate the configuration and measurement processes, 
and by acquiring and deploying additional hardening tools (e.g., 
antivirus scanners). Another area is ensuring the perimeter defenses 
deployed by DOD operators are properly placed and configured to best 
support interoperability and security. A third area is ensuring that 
applications are designed in a secure way, and in a way that ensures 
the application operates properly on a secured computer, and with the 
different layers of perimeter defense.
    Another area is that of eliminating inappropriate anonymity in the 
networks by providing a non-replayable cyber identity credential and 
enabling its use in more and more interactions within the Department 
and external to it. The DOD public key infrastructure program, and 
related directory and application guidance efforts are the primary 
components of this area. A fifth area is the design, deployment, and 
operation of an infrastructure to detect and diagnosis attacks 
sufficiently well that network operations entities can rapidly 
construct militarily useful courses of action, then execute the most 
promising. In addition to this infrastructure, the DISA Theater NETOPS 
Centers (TNCs), working under the JTF GNO, provide an attack detection 
and diagnosis service to the Combatant Commanders, and certain others 
in the Department. DISA also builds systems that collect the data about 
compliance (with vulnerability standards, with CTOs, with IAVAs, etc.) 
and that provide readiness and vulnerability information to both 
operational and programmatic decision makers.
    Information assurance in information technology efforts that DISA 
manages. The certification and accreditation process, the DISA system 
engineering process, and the DOD acquisition process all combine to 
ensure that in each area in which DISA is responsible for deploying 
and/or operating information technology, (for instance command and 
control, the network, enterprise computing), the effort has appropriate 
information assurance.
    DOD-wide IA training. DISA develops and distributes core 
information assurance training material for the Department. These 
courses are continuously updated to reflect the latest vulnerabilities, 
threats, technologies, DOD trends, and the like.
    All of the processes and efforts described above are aimed at 
ensuring that DISA's efforts, the JTF GNO's efforts, and DOD's efforts 
keep pace with changes in vulnerability and threat. In addition to 
these, DISA tracks and leads the deployment of certain technologies in 
the Department, and also uses this information in constructing the 
product mix in its information assurance efforts. The following are two 
examples of what DISA is doing to consider changes in technology in 
DISA's ever evolving information assurance efforts.
    DISA is advocating, along with others, a movement to the SOA style 
of building applications and business processes in the Department. This 
is how the new joint command and control capability, called Net-Enabled 
Command Capability (NECC) will be constructed. The SOA means that 
different DOD and non-DOD entities will provide services that are 
available on the network, and that an application developer will 
``compose'' an application from these network-based services. This will 
be a significant change in the security model for applications, and so, 
as part of the Netcentric Enterprise Services Program, DISA is 
providing guidance documents that describe the security services (and 
other standards) needed at the service interface, including the 
standards for a new form of access control called attributed-based 
access control. DISA is also providing source code samples for these 
interfaces, and is providing a Joint Enterprise Directory Service to 
enable this new form of access control.
    DISA, via its Chief Technology Officer, operates a technology 
reconnaissance office that helps DISA recognize and stay in front of 
information technology trends, whether from industry or academia. The 
output of this effort is used as input to the DISA and to the GIAP 
information assurance definition and prioritization processes.
    Mr. Smith. The Joint Interoperability Test Center has been given a 
recent mandate to create a test and evaluation methodology to 
accelerate delivery of Service Oriented Architecture based information 
processing capabilities. Could you explain what you mean by ``service-
oriented architecture'' and why this is an important departure from how 
we have done business in the past? What is JITC's status in developing 
this T&E methodology?
    General Croom. Service-oriented architecture (SOA) is an approach 
for enabling information sharing across complex information technology 
(IT) systems that is rapidly being adopted in both the public and 
private sectors. At the most fundamental level, SOA is a way for many 
and diverse stakeholders to share information and perform IT functions 
for others over a network. These functions, or services, are provided 
using well defined interfaces to avoid unnecessary dependencies among 
stakeholders' systems. By enabling the sharing of functions across 
traditional system boundaries, stakeholders need not build systems 
themselves for every function to be performed.
    Operating in a SOA, there are two important stakeholders, the 
provider or the one who performs the function, and the consumer or the 
one who requests the function be performed. Prospective consumers can 
discover available services and choose to have providers provide 
services to them. Providers offer to perform services and do not 
necessarily need to know in advance who the consumers may be. The 
interaction of the provider and consumer occurs through a service 
interface described by a service agreement between the two 
stakeholders. The service agreement can define requirements and 
objectives such as intended use, performance guarantees, and 
information assurance requirements.
    Mr. Smith. Could you explain what you mean by ``service-oriented 
architecture'' and why this is an important departure from how we have 
done business in the past?
    General Croom. The service-centric approach of SOA is fundamentally 
different than the system-centric approach that has been used in the 
past. Rather than focusing on the development of monolithic systems 
based on fixed requirements and single user communities, SOA focuses on 
rapidly evolving services that can be consumed by others to support 
changing mission needs. Effective use of SOA leads to reduced 
redundancy and improved flexibility, effectiveness, and efficiencies. 
SOA also enables stakeholders to implement and evolve their IT 
environments independently. Providers have greater capability to 
modify, extend and rapidly improve individual services independently, 
and consumers have the ability to implement new or altered business 
processes at a level that is largely independent of any particular IT 
system. This flexibility coupled with consumer choice, enables the 
agility necessary to rapidly respond to changing needs and threats. 
Benefits of SOA include:

        <bullet>  Interoperability: Ability to seamlessly share 
        functions capabilities and information across organizational 
        boundaries regardless of their underlining technology, platform 
        or location.

        <bullet>  Agility: Ability to dynamically reconfigure processes 
        to meet changing operational requirements. SOA reduces 
        integration costs and makes the enterprise more adaptable to 
        dynamically changing mission needs and operational situations. 
        These improvements facilitate the warfighter ability to adapt 
        and respond inside the enemy's decision loop.

        <bullet>  New and Enhanced Capabilities: Since a consumer can 
        choose from a range of services offered over the network rather 
        then just those functions supported offered within their own 
        systems, new capabilities can be rapidly enabled.

        <bullet>  Visibility: Common understanding of requirements and 
        capabilities among consumers, planners and providers enabling 
        the justification of IT investments on a basis of clear return 
        on investment and seamless alignment of IT investments with 
        mission requirements.

    Mr. Smith. What is JITC's status in developing this T&E 
methodology?
    General Croom. The Joint Interoperability Test Command (JITC) has 
developed methods for testing SOA-based capabilities to ensure the 
warfighters' operational needs are effectively met. The elements 
outlined below provide the foundation for interoperability test 
methodology for SOA-based capabilities.

        <bullet>  Standards. Test methodology to assess compliance to 
        standards important to net-centric operations

                <bullet>  Verify capabilities meet DOD implementation 
                guidance for connecting to the GIG.

                <bullet>  Verify capabilities meet DOD implementation 
                guidance for use of net-centric standards, e.g., SOAP, 
                WSDL and UDDI.

        <bullet>  Data and Services. Test methodology to verify data 
        and services are visible, accessible, and understandable

                <bullet>  Data and services are discoverable and 
                available at an enterprise level, e.g., registered in 
                enterprise level repository/catalog, and support 
                service level agreements

                <bullet>  Guidance is published and used for gaining 
                access to data/services, e.g., electronic 
                identification, authentication, and authorization

                <bullet>  Data can be used as information that supports 
                mission requirements

        <bullet>  Information Assurance (IA). Test methodology assesses 
        compliance that services are trusted and secure.

                <bullet>  Verification the system/service meets 
                requirements for integration into an operational 
                environment by reviewing DOD IA Certification and 
                Accreditation Process (DIACAP) documentation

                <bullet>  Validation that the system/service is 
                configured in accordance with approved security 
                guidance using scans, gold disks, and display of 
                enclave device settings

        <bullet>  End to End Operational Effectiveness. Ensures 
        capability enhances mission effectiveness

                <bullet>  Testing using mission threads in relevant and 
                operationally realistic environments.

    JITC is executing and refining this methodology through a series of 
pilot efforts specifically supporting enhanced capability for command 
and control using the Net-Enabled Command Capability program.
                                 ______
                                 
                 QUESTIONS SUBMITTED BY MR. THORNBERRY
    Mr. Thornberry. You have responsibility for Department of Defense 
Networks and Information. Who has responsibility for the non-DOD/IC 
government networks?
    Secretary Grimes. The non-DOD/IC government networks come under the 
purview of the Director, National Intelligence (DNI) CIO who in turn 
interfaces extensively with the CIOs for the agencies within the IC. 
The other non-DOD related networks are under the purview of the 
Department of Homeland Security (DHS) CIO. DOD CIO works closely with 
the DNI CIO and also has a good working relationship with the DHS CIO.
    Mr. Thornberry. Who has responsibility for the commercial networks 
or ``backbones''?
    Secretary Grimes. Within the United States, the commercial networks 
are administratively governed by the Federal Communications Commission 
and Federal Trade Commission. The National Communications System, which 
is part of the Department of Homeland Security, synchronizes the 
activity of commercial carriers in support of government operational 
needs. The Department of Defense has long haul communications 
requirements worldwide that are supported through multiple contracts 
with commercial carriers, both foreign and domestic. The Department 
mitigates risk and dependence by maintaining control of the switching 
fabric and deriving connectivity from a diversity of carriers; thus 
allowing the Department to reroute its networks in the event of an 
individual carrier failing. This strategy includes both terrestrial and 
satellite networks.
    Mr. Thornberry. You mentioned attacks on the DOD IT Infrastructure 
and protecting against that. Is it still true that about 90% of the DOD 
IT Infrastructure rides on the relatively unprotected commercial 
backbone?
    Secretary Grimes. The DOD Global Information Grid (GIG) includes 
all owned and leased communications and computing systems and services, 
software (including applications), data, security services, and other 
associated services necessary to achieve Information Superiority. As 
Lt. Gen. Croom stated during the hearing on March 28th, the DOD 
military network includes 120,000 leased circuits and commercial 
satellite communications. The majority of the DOD IT Infrastructure 
leverages the commercial backbone to reach approximately 3,940 Base/
Post/Camps/Stations in over 88 nations. The DOD GIG is global, mobile, 
and interconnected. Our dependence on a shared critical information 
infrastructure is our strategic advantage as well as our weakness.
    Mr. Thornberry. What happens if there is a catastrophic attack 
against the commercial infrastructure that also brings down the DOD 
communications?
    Secretary Grimes. The Federal Government has a primary role in 
responding to cyber threats and assisting in recovery from and 
remediation of cyber incidents requiring a coordinated Federal 
response. The National Cyber Response Coordination Group (NCRCG), of 
which DOD is a co-chair (with the Department of Homeland Security and 
the Department of Justice) provides a mechanism for ensuring that 
sound, strategic decision-making accompanies the Federal Government's 
management of a cyber incident. DOD communications ride on commercial 
infrastructure which is why the Department is working to ensure 
redundancy and resiliency in the architecture and to ensure operators 
are knowledgeable and trained on work arounds. While there are limited 
fallback capabilities, the DOD has taken additional steps to increase 
resilience against sophisticated cyber attacks including the formation 
of a working group that was charged with analyzing the issue and laying 
out a plan of action to ensure the Department of Defense is able to 
accomplish its critical missions when networks, services, or 
information are unavailable, degraded, or untrusted. The interest in 
and concern about network security is increasing in the National 
Security and Emergency Preparedness (NS/EP) Communications, 
Intelligence, and Defense communities, as well as in agencies across 
the Federal Government. The Department is working with the President's 
National Security Telecommunications Advisory Committee's (NSTAC) 
Global Infrastructure Resiliency Task Force (GIRTF) and Network 
Security Scoping Group (NSSG.)
    Mr. Thornberry. Who is responsible for finding the origin of the 
attacks and restoring the network; and how is it managed?
    Secretary Grimes. With respect to attribution, it is a difficult 
topic in cyberspace. The Intelligence community plays a key role in 
improving intelligence capabilities in cyberspace to facilitate 
attribution. Our ability to leverage the full spectrum of intelligence 
to support cyberspace operations is essential for situational awareness 
and response options to deal with an asymmetric and pervasive cyber 
threat. As stated above, the Department of Defense is a co-chair, with 
the Department of Homeland Security and the Department of Justice, of 
the National Cyber Response Coordination Group (NCRCG). The NCRCG is 
comprised of subject matter experts from Federal agencies who have 
roles and responsibilities related to investigating, defending against, 
responding to, mitigating, and assisting in the recovery from a Cyber 
Incident. When a cyber incident occurs, the Secretary of Homeland 
Security takes on the role as Principal Federal Official for incident 
management under HSPD 5. For restoring the network this depends where 
network was attacked, either the backbone provider, the ISP, or the 
local network owner would be responsible for restoring their portion of 
the network.
    Mr. Thornberry. How does DOD respond?
    Secretary Grimes. Within DOD, the United States Strategic Command 
(USSTRATCOM) has been designated as the military lead for defending the 
DOD Global Information Grid (GIG). USSTRATCOM has responsibility for 
coordinating, supporting, and conducting computer network operations 
(CNO) in support of regional and national objectives. Through the Joint 
Task Force-Global Network Operations (JTF-GNO), USSTRATCOM directs the 
operation and defense of the GIG to assure timely and secure net-
centric capabilities in support of DOD's full spectrum of warfighting, 
intelligence, and business missions. In its execution of cyber defense 
missions, the DOD employs a defense-in-depth approach and each of the 
Services and other Combatant Commands implement complementary policies, 
structures, roles, and missions. For security reasons, we do not 
discuss specifics about how this mission is carried out.
    In the event of a cyber incident, the National Cyber Response 
Coordination Group is convened to develop courses of action and 
incident response strategies for the Federal Government, and the DOD, 
as co-chair, participates accordingly.
    Mr. Thornberry. How does the rest of the federal government 
respond?
    Secretary Grimes. The Department of Homeland Security (DHS) has the 
responsibility of assuring the security, resiliency and reliability of 
the Nation's information technology and communications infrastructures. 
The DOD is responsible for defending the DOD Global Information Grid, 
but in regards to homeland security and cyberspace issues, DHS has the 
lead for the federal government.
    Officials from DHS, Department of Justice, and Department of 
Defense serve as co-chairs for the National Cyber Response Coordination 
Group (NCRCG). Approximately 17 Federal departments, agencies, and 
entities with a role in cyber security, cybercrime, or protection of 
the critical infrastructure/key resources (CI/KR) have a role in the 
NCRCG.
    Mr. Thornberry. Do you see any changes in authorities and policies 
to ensure DOD is able to operate and protect the network, particularly 
in the area of active defense?
    Secretary Grimes. A number of Departmental policies delineate roles 
and responsibilities in operating and defending the DOD's Global 
Information Grid. While active defense introduces a potentially new 
operational dimension through its machine-to-machine characteristics 
and its potential to instantly impact adversarial networks and 
cyberspace, it does not, by itself, necessitate the creation of new 
policy.
    In terms of traditional information assurance and computer network 
defense, the DOD is guided by some 60 policy documents that range from 
directives and instructions to policy memorandums and technical 
bulletins. The authorities are largely established by law, 
organizational missions, and/or mission planning processes, and 
generally rest on the idea that distributed approval authorities are 
responsible for the security and stewardship of their individual 
enclave. Combatant commanders, military services, defense agencies and 
field activities conduct defensive network activities based on local 
requirements, centralized direction and established standards. This is 
no reason to suspect these policies or approaches are inappropriate or 
inadequate.
    Where active defense is concerned, response actions are automated 
and reaction times are significantly condensed, thus potentially 
eliminating human discretion in the application of defensive triggers 
and cyber effects. This presents possible new legal frontiers in future 
iterations/applications of active defense, as policy-based programming 
will require the establishment of computer rules that potentially 
transcend U.S. Code and agency jurisdiction (e.g., Justice, DHS, 
Intelligence). This paradigm, however, is not arguably different than 
what exists today.
    Although active defense does not yet warrant the creation of new 
network defense policies, legal considerations should be socialized and 
captured as we begin to institute automated defense capabilities on a 
more widespread basis.
    Mr. Thornberry. Is taking the cyber fight offshore, to the 
adversary, considered an act of war by the foreign country receiving 
this military cyber action?
    Secretary Grimes. [The information referred to is classified and 
retained in the committee files.]
    Mr. Thornberry. How does DOD consider the War Powers Act in terms 
of cyber warfare?
    Secretary Grimes. [The information referred to is classified and 
retained in the committee files.]
    Mr. Thornberry. Given many of the cyber intrusions/attacks the USG 
sees today are often hidden through U.S. Internet sites, how will DOD 
coordinate their strike actions with U.S. law enforcement or homeland 
security authorities?
    Secretary Grimes. The span of DOD defensive response actions and 
the amount of coordination with U.S. Law Enforcement/Homeland Security 
Authorities is based upon both the parties affected and the severity of 
the intrusion/attack. In most cases, responses to the intrusions/
attacks are in line with those procedures and processes normally 
associated with incident handling and information sharing. In recent 
years, DOD has made dramatic improvements in its coordination with and 
in the sharing of information with U.S. Law Enforcement/Homeland 
Security. This has enabled an increased responsiveness on the parts of 
both DOD and U.S. Law Enforcement/Homeland Security while 
simultaneously maintaining the appropriate safeguards and policies that 
govern our respective responsibilities. For those cases where an active 
response may be warranted, guidelines and procedures have been 
established that provide for the coordination of actions based on both 
National and DOD Cyber Operations related directives and plans. United 
States Strategic Command (USSTRATCOM) Joint Task Force-Global Network 
Operations (JTF-GNO), regularly participates in the Department of 
Homeland Security/Department of Defense/Department of Justice led 
National Cyber Response Coordination Group (NCRCG). In an attack on DOD 
networks, all DOD parties adhere to the Secretary of Defense's 
(SECDEF's) Standing Rules of Engagement/Standing Rules for the Use of 
Force for Information Operations. For network attacks on U.S. Civilian 
Infrastructure, DOD participation in a U.S. Law Enforcement/Homeland 
Security led active response action would be governed by the existing 
laws concerning DOD/Military Support to Civil Authorities or as 
assigned and authorized by SECDEF. In all cases, military actions 
within the U.S. are a measure of last resort.
    Mr. Thornberry. How do the Services, the operational commanders, 
and the Intelligence Community coordinate their activities?
    Secretary Grimes. The most mature process for coordinating United 
States Strategic Command's (USSTRATCOM's) Joint Functional Component 
Command of Network Warfare (JFCC-NW) offensive cyber operations with 
the Services, the operational commanders, and Intelligence Community is 
a JFCC-NW led joint interagency group of over 25 participants 
supporting the Global War on Terrorism. Additionally, while this forum 
primarily focuses on offensive cyber operations, it serves as an 
excellent model for future integrated offensive and defensive cyber 
operations of the United States Government.
    Today, the National Cyber Investigative Joint Task Force (NCIJTF) 
coordinates DOD, Intelligence Community, and Law Enforcement/Counter-
Intelligence Community efforts concerning network intrusions and 
attacks from Law Enforcement/Counter-Intelligence framework.
    Currently, the National Cyber Response Coordination Group (NCRCG), 
led by a tri-chair from Department of Homeland Security, Department of 
Defense, Department of Justice, and consisting of representatives from 
most of the major Federal Departments, synchronizes and coordinates the 
Federal Government's National Cyber Defensive efforts.
    Mr. Thornberry. Are we doing anything to adopt private industry's 
practices of remotely provisioning the network with patches, or are we 
relying on people to comply with JAVAs? Are there enough trained 
personnel to manually patch each vulnerability? What are we doing to 
enforce compliance with IAVAs and configuration guidance?
    Secretary Grimes. Are we doing anything to adopt private industry's 
practices of remotely provisioning the network with patches, or are we 
relying on people to comply with IAVAs?
    The Department of Defense (DOD) does embrace the industry approach 
of remotely provisioning systems and network security patches as a best 
practice, through the centrally funded provision of automated scanning 
and remediation tools, SCCVI and SCRI,\1\ and supporting policies and 
instruction. These tools have been provided for use by Information 
Assurance and system administration staff of all DOD Combatant 
Commanders, Services, Agencies and Functional Areas (CC/S/A/FAs) since 
November 7th 2005; automated scanning and remediation has been mandated 
since February 28th 2006.\2\
---------------------------------------------------------------------------
    \1\ Secure Configuration Compliance Verification Initiative (SCCVI) 
and Secure Configuration Remediation Initiative (SCRI).
    \2\ From Communication Tasking Order 05-19 dated November 7th 2005.
---------------------------------------------------------------------------
    No viable solution exists to deliver software patches, remotely, to 
all systems in a heterogeneous network of the size and complexity of 
the GIG. For this reason DOD relies on the Information Assurance and 
network administration staff of CC/S/A/FAs to comply with the 
Information Assurance Vulnerability Management (IAVM) program specified 
at CJCSM 6510.01 Change 2, by detecting vulnerabilities and applying 
software patches identified in Information Assurance Vulnerability 
Alert (IAVA) notices using automated vulnerability scanning and 
remediation tools, wherever possible.
    However, our tools, policies and procedures are reviewed frequently 
and significant DOD effort is being invested in the study and adoption 
of a Data Standards framework. For vulnerability management, National 
Institute of Standards and Technology's (NIST's) SCAP (Security Content 
Automation Protocol) standards will provide a framework for mapping 
operating systems and applications to vulnerabilities and patches, 
enabling more capable automated scanning and remediation tools in the 
future.
    Are there enough trained personnel to manually patch each 
vulnerability?
    With the availability of automated tools, there is no requirement 
to manually patch each vulnerability; however, automated solutions do 
not yet work for all platforms, requiring some manual patching. IAVM 
program compliance results suggest that, even with the best-of-breed 
automated tools that exist today (which ease some of the burden of 
patching), adequately staffing DOD's network management requirements is 
a challenge.
    The Department employs various methods to deliver information 
security training to its technical workforce, and user awareness 
training to its worldwide workforce. These include traditional 
classroom training at Service schools and the private sector, 
professional military education courses, Service academies, and 
graduate schools; computer-aided instruction and web-based training; 
and multiple information security products and activities. DOD policy 
8570.01-M ``Information Assurance Workforce Improvement Program'' 
defines personnel with significant information assurance (IA) 
responsibilities as those individuals performing Designated Approval 
Authority (DAA), Information Assurance Manager (IAM), and/or 
Information Assurance Technical (IAT) functions. This manual leverages 
industry best practices and raises the bar on commercial IA 
certifications by requiring they be accredited to an ISO standard for 
organizations that certify people.
    As reported in the FY07 DOD FISMA report, the IA Workforce 
Improvement Program accomplishments for FY 2007 include:

        <bullet>  Expanded the number of universities designated as 
        Centers of Academic Excellence in IA Education to 86 in FY 
        2007. These include 4 DOD schools (U.S. Military Academy, U.S. 
        Air Force Academy, Air Force Institute of Technology, and Naval 
        Postgraduate School).

        <bullet>  Continued aggressive use of the DOD IA Scholarship 
        Program: 42 students graduated in 2007, 62 students awarded 
        scholarships in 2007, 289 students have participated since the 
        program's inception in FY01, and 179 students have graduated 
        since the program's inception.

        <bullet>  Met its initial year implementation goal to certify 
        (using commercial IT security certifications) 10% of the IA 
        workforce.

    What are we doing to enforce compliance with IAVAs and 
configuration guidance?
    Secure system configuration is directed and mandated through the 
JTF-GNO managed IAVM program and through the Defense Information System 
Agency (DISA) Field Security Operations (FSO) team that produces 
Security Technical Implementation Guides (STIGs) for critical IT 
products, covering a variety of Operating Systems, applications, 
databases, networked services and network infrastructure. Another DISA-
developed product, the `Gold Disk', has been developed for some OS 
versions to help System Administrators determine the configuration of a 
computer and automatically fix most configuration vulnerabilities in 
line with the STIG guidance. The Federal Desktop Core Configuration 
(FDCC) standard also provides a baseline secure configuration, and has 
been incorporated into STIGs.
    JTF-GNO tracks the response of CC/S/A/FAs to every IAVA that is 
issued under the IAVM program IAW CJCSM 6510.01 Change 2. Poor response 
is monitored and reported to the Commander, JTF-GNO each quarter, and 
routine engagement with CC/S/A/FAs through the Action Officer, DCDR and 
CDR is increased whilst outstanding issues are resolved. This process 
is under review by JTF-GNO, in concert with OSD(NII).
    The DOD also regularly validates the cyber security of its 
operational systems and of the processes associated with the security 
of these systems. An example is the DISA Enhanced Compliance Validation 
(ECV) visit process. DISA has teams that are under the operational 
control of the JTF-GNO; these teams visit selected government sites 
that are connected to the core DOD networks (the unclassified network, 
called the NIPRNET, and the Secret network, called the SIPRNET). Each 
ECV team examines the policies and procedures at the site, and performs 
tests and checks to determine the site's compliance with the 
department's cyber security standards. The findings are back-briefed to 
JTF-GNO leadership who monitor any required remediation action to 
closure. Lessons-learned are captured and shared across the DOD IA 
community to aid in local self-assessment efforts, stimulate policy and 
technical guidance review, and inform future engineering and training 
efforts.
    Mr. Thornberry. It has been widely reported that GEN Cartwright has 
characterized the current information operations structure as 
``dysfunctional.'' What is your view and what can we do to help?
    General Croom. While I would agree that the structure we work 
within today isn't perfect, I think General Cartwright's comments are 
founded on the idea that current laws and regulations present some 
organizational difficulties that prevent us from yielding capabilities 
as quickly as we would like.
    Whether we call it Information Operations (IO) or cyberspace, the 
terms demand that we bring together a wide body of formerly disparate 
players into a relatively new mission set. For the DOD, this means 
electronic warfare specialists as well as computer network operators 
and even special operations forces must now be cognizant of how their 
once-isolated missions now affect the greater landscape of cyberspace. 
The Department has a strong doctrine and a number of Department-wide 
venues that attempt to mold this new space and deconflict roles and 
responsibilities. As with any transformational effort, there's a good 
deal of work to go in refining the mechanics and synchronizing policy, 
but I think we're enjoying healthy debate while moving the culture in 
the right direction.
    At the National level, cyberspace security crosses many U.S. 
Codes--from Title 10, Title 50, Title 44, Title 18 and Title 6--and 
hence the resulting structure is composed of agencies and organizations 
who've never had to jointly confront the kinds of threats that we face 
today. We have seen very promising success from pilot efforts that 
literally bring the interagency players together to confront our 
adversaries in cyberspace, and in that regard I think we are well on 
our way to gaining understanding, resolving differences and 
institutionalizing best practices within the appropriate legal 
frameworks.
    In terms of network defense--which is but one element of IO--I 
believe we have made tangible strides even in the past few years in 
bringing order and discipline to the DOD networks. My Joint Task Force 
Global Network Operations has made a measurable difference in the 
security and integrity of our DOD information systems, and the federal 
government has taken notice of our successes and regularly seeks our 
input on governance and security implementation measures.
    Mr. Thornberry. You've mentioned your responsibility to protect the 
network as part of your Commander Joint Task Force-Global Network 
Operations. How does this work? In particular what do you do compared 
with Joint Functional Component Command-Network Warfare? Specifically 
how do the two organizations work together?
    General Croom. The Joint Task Force-Global Network Operations (JTF-
GNO) has the responsibility to operate and defend the information 
infrastructure of the department. The JTF-GNO focuses on operational 
procedures and tools on ensuring the Department's information 
infrastructure is best poised to support the Department's missions. 
This means that customers can successfully execute their missions in 
spite of whatever is happening in the information infrastructure. For 
example, when we get a hint that something bad is or could be happening 
in the infrastructure, whether a cable cut, a computing failure, 
unexpected spikes in demand for a service, or a cyber attack, we start 
a triage and diagnosis process focused on determining what is really 
going on so that we can construct the most militarily appropriate 
reaction. In this diagnosis process we inform all parties we believe 
would be interested that something is going on, and we work with 
whatever partners are appropriate to the situation to do the diagnosis. 
This means we work with partners throughout the DOD, the intelligence 
community, our customer community, industry, and other parts of 
government.
    The next phase of our response to an incident is the development of 
militarily useful courses of action, the selection of one of these, 
then the execution of the selection. Depending on the results of our 
diagnosis work, we may work closely with the Joint Functional Component 
Command-Network Warfare (JFCC-NW) in the development of courses of 
action since some potential actions may affect other information 
warfare missions, or since some of our possible courses of action may 
involve military capabilities and units that are not directly under my 
control as the Commander of the JTF-GNO. The JFCC-NW can bring these 
forces to bear on the situation, if necessary. We also work with other 
Combatant Commanders who may be affected by an incident, or who may 
have forces and capabilities necessary to appropriate reaction to the 
incident. Additionally, depending on the course of action selected, the 
JFCC-NW may be involved in coordinating part of the action, or involved 
in monitoring effectiveness of the action.
    We also work closely with the JFCC-NW in deliberate planning, and 
in the deconfliction of other information operations missions that may 
be going on at any particular time so that we can ensure the DOD's 
information infrastructure is poised to properly support these 
missions.
    I believe all of these processes and the relationship are working 
well.
    Mr. Thornberry. What grade (A-F) would you give to our ability to 
detect and react, in a timely fashion, to attempts by our adversaries 
to infiltrate DOD networks? What are we doing to improve our posture?
    General Croom. Congressman Thornberry, I am not satisfied with our 
efforts to date in the context of your question and I would only give 
us (myself included) a grade of ``C.''
    This business of building information infrastructures that can best 
resist intrusions and attacks, can detect and diagnosis these quickly, 
can be operated to be resilient in the face of these, and can support 
militarily useful reactions to these incidents and attacks is a new 
area of warfare. Just like every other area of warfare, in which 
technology developments by one side have led to operational, 
technology, and organizational changes by the other side, we must now 
react to changes in our adversaries and potential adversaries 
capabilities and intent in the information space.
    The thing that makes this area of warfighting different is the 
speed at which technology changes, and as a consequence, the speed at 
which our adversaries and our potential adversaries can develop new 
methods of exploiting and attacking our information and information 
infrastructure. The other thing that makes this area a challenge is the 
anonymity inherent in the current generation of technologies that make 
up cyber space.
    Based on the current understanding by the United States of the 
capabilities and intent of our adversaries and potential adversaries, 
we have deployed and operate both commercial and government-developed 
methods of monitoring and diagnosis, and have procedures and tactics we 
use to do this that we practice. Owing to the difficulty of 
attribution, we also partner with the intelligence community in the 
diagnosis of certain probes, incidents, and attacks that originate 
offshore.
    The Department has developed operational procedures for a range of 
reactions to incidents and attacks. These include a wide range of 
partners both within and outside the Department.
    Additionally, the Department continuously re-evaluates our 
detection, diagnosis, and reaction capabilities, our resistance to 
exploitation and attack, and we work to adjust accordingly. We adjust 
our investments and recommended investments in protection, detection, 
and reaction technologies via the Global Information Grid portfolio 
management office, which is under the Assistant Secretary of Defense 
for Networks and Integrated Information. We adjust our operational 
procedures, training, and exercises, under my hat as the Commander of 
the Joint Task Force-Global Network Operations.
    As a result of these efforts, we are always deploying improved 
protection, detection, and reaction technologies and operational 
procedures. For certain kinds of exploitation and attack we are good at 
detection and reaction, and we are getting better. For other kinds of 
exploitation and attack, we do not yet have the speed and diagnosis 
fidelity that I believe we need to ensure that we can react in 
militarily useful ways, and with militarily useful speed.
    So, as the person responsible for operation and defense of the 
Department's information infrastructure, I am not yet satisfied at the 
resistance of our infrastructures to exploitation and attack, and I am 
not yet satisfied in my ability to detect, diagnose, develop militarily 
useful courses of action, and react to attacks. I am also not satisfied 
in my understanding of adversary and potential adversary capabilities 
and intent.
    As I mentioned earlier, I see improvements in all of these areas. 
However, as the operational commander, I am also not yet satisfied that 
the pace of improvement will keep up with the pace of our adversaries 
and potential adversaries. We need better understanding of adversary 
capabilities and intent, and we need a more agile process for 
allocating resources to, then acquiring, developing, and fielding 
protection, detection/diagnosis, and reaction capabilities.
    Mr. Thornberry. From press reporting, intrusions into the GIG and 
other DOD networks seem to be just against unclassified systems. Is 
there any indication that our classified networks have been penetrated? 
What is done to monitor those networks?
    General Croom. There is no indication that our classified networks 
have been penetrated. That said, the Department focuses a tremendous 
amount of attention on the hardening of these networks, on the 
monitoring for penetrations and other kinds of attack, and on 
practicing operational procedures for detecting and reacting to 
incidents and attacks on these networks. In addition to an array of 
protection mechanisms that include government-grade cryptography, the 
Department has deployed, and is continuously improving, technologies 
and procedures for monitoring for anomalous behavior by insiders, for 
anomalous behavior of our systems, for monitoring for leaks from the 
classified networks, and for other sorts of things that the Department 
believes would be indicators of an exploit or attempted exploit.
    I can say however, that just as on the unclassified networks, we 
have programs to constantly improve our resistance to attack, our 
ability to detect an attack, our operational procedures, and the 
training of our people.
    Mr. Thornberry. During the hearing you mentioned that you believe 
you may lose a portion of the skilled work force due to an upcoming 
move to Fort George G. Meade, Maryland. What are your specific plans to 
assess the loss and develop plans to attract the talent you need to 
ensure DISA is still able to perform its mission?
    General Croom. DISA will be relocating 4,272 positions to Fort 
Meade, MD. Construction on a new facility at Fort Meade for the DISA 
workforce will begin in July, 2008. The projected timeline for 
completing the relocation of employees is July, 2011. More than 70% of 
the current workforce resides in Northern Virginia and more than 80% of 
the workforce is in technical or engineering/science positions with 
highly marketable skills.
    DISA assesses the potential loss of personnel via regular surveys 
to determine employees' views on relocating and also solicit input on 
factors that may increase workforce interest in the relocation. DISA 
also has an on-going workforce planning process that assesses agency 
trends related to attrition, retirement eligibility, future skill gaps, 
and succession planning. One component of this plan is an aggressive 
Intern hiring program whereby the agency hires on average more than 100 
recent college graduates and an additional 100 current college students 
per year to facilitate replenishing the talent within the agency. This 
program has resulted in reducing the average age of DISA's workforce to 
below the federal-wide average.
    DISA also developed a comprehensive BRAC Human Resources (HR) Plan 
which outlines various incentives that will be available to relocating 
employees plus information on teleworking and other quality of life 
opportunities, housing, education, transportation, possible spouse 
employment, and many other initiatives. The BRAC HR Plan is updated 
regularly to add additional incentives/initiatives for both current and 
prospective employees and to adjust recruitment and retention 
strategies as necessary to ensure DISA is postured for the future.

                                  <all>

</pre></body></html>
